May 14, 2012

TO:            Marilyn Tavenner
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Gloria L. Jarmon/
               Deputy Inspector General for Audit Services


SUBJECT:       Review of New Mexico Medicaid Personal Care Services Provided by Heritage
               Home Healthcare (A-06-09-00063)


Attached, for your information, is an advance copy of our final report on New Mexico Medicaid
personal care services provided by Heritage Home Healthcare. We will issue this report to the
New Mexico Human Services Department, Medical Assistance Division, within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or Patricia
Wheeler, Regional Inspector General for Audit Services, Region VI, at (214) 767-8414 or
through email at Trish.Wheeler@oig.hhs.gov. Please refer to report number A-06-09-00063.


Attachment
                                                             O FFICE OF A UDIT S ERVICES , R EGION VI
                                                                1100 C OMMERCE S TREET, R OOM 632
                                                                                  D ALLAS , TX 75242
May 15, 2012

Report Number: A-06-09-00063

Ms. Julie Weinberg
Director
New Mexico Human Services Department
Medical Assistance Division
2025 South Pacheco
Santa Fe, NM 87504

Dear Ms. Weinberg:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of New Mexico Medicaid Personal Care Services
Provided by Heritage Home Healthcare. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414, or contact Paul Garcia, Audit Manager, at (512) 339-3071 or through email at
Paul.Garcia@oig.hhs.gov. Please refer to report number A-06-09-00063 in all correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Julie Weinberg


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF NEW MEXICO MEDICAID
PERSONAL CARE SERVICES PROVIDED
  BY HERITAGE HOME HEALTHCARE




                        Daniel R. Levinson
                         Inspector General

                            May 2012
                          A-06-09-00063
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In New Mexico, the Human Services Department,
Medical Assistance Division (the State agency), is responsible for administering the Medicaid
program.

Pursuant to 42 CFR § 440.167, personal care services may be provided to individuals who are
not inpatients at a hospital or residents of a nursing facility, an intermediate care facility for the
mentally retarded, or an institution for mental disease. The services must be (1) authorized by a
physician pursuant to a plan of treatment or, at the State agency’s option, otherwise authorized in
accordance with a service plan approved by the State agency; (2) provided by an attendant who
is qualified to provide such services and who is not the recipient’s legally responsible relative;
and (3) furnished in a home and, at the State agency’s option, at another location. Examples of
personal care services include, but are not limited to, cleaning, shopping, grooming, and bathing.

The State agency contracts with a third-party assessor to perform an in-home assessment of each
recipient that determines the types and amounts of care needed and to develop a personal care
services plan. In addition, New Mexico law requires a supervisor from the personal care services
provider agency to visit each recipient or his or her personal representative in the recipient’s
home monthly. The State agency periodically reviews provider agencies to ensure compliance
with Federal and State requirements.

The State agency reported to CMS personal care services expenditures of approximately
$433 million ($309 million Federal share) from October 1, 2006, through September 30, 2008.
Of that amount, Heritage Home Healthcare (Heritage), a personal care services provider in
Albuquerque, New Mexico, received $22,454,952 ($16,058,247 Federal share).

OBJECTIVE

Our objective was to determine whether the State agency ensured that Heritage’s claims for
reimbursement of Medicaid personal care services complied with certain Federal and State
requirements.

SUMMARY OF FINDINGS

The State agency did not always ensure that Heritage’s claims for Medicaid personal care
services complied with certain Federal and State requirements. Of the 100 claims in our sample,
64 (totaling $3,837) complied with requirements, but 36 (totaling $2,243) did not. Those 36



                                                  i
claims contained a total of 41 deficiencies: 35 deficiencies on insufficient attendant
qualifications and 6 deficiencies on other issues. As a result, Heritage improperly claimed
$2,243 for the 36 claims.

Based on our sample results, we estimated that Heritage improperly claimed at least $4,483,492
(Federal share) for personal care services during the period October 1, 2006, through
September 30, 2008.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government the $4,483,492 paid to Heritage for unallowable
       personal care services and

   •   ensure that personal care services providers maintain evidence that they comply with
       Federal and State requirements.

HERITAGE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In its written comments on our draft report, Heritage disagreed with almost all of our findings.
Heritage did not dispute our finding that 1 hour was mistakenly billed because the client was in
the hospital. Heritage disagreed with our remaining findings. Heritage’s comments are included
in their entirety as Appendix D.

Along with its comments, Heritage provided documentation that it did not provide during our
review. After reviewing the documentation, we reevaluated some claims and determined that 15
complied with Federal and State regulations. We revised the findings and recommendations
accordingly.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In its written comments on our draft report, the State agency disagreed with our recommended
refund amount paid to Heritage for improper claims submitted for the audit period. The State
agency said that four of the five categories of deficiencies (i.e., training documentation,
cardiopulmonary resuscitation and first aid certification, tuberculosis testing, and prior approval
of legal guardian) did not justify withholding Federal funds because only a small number of files
were deficient. The State agency also said that the documentation requirements for these four
categories are not Federal requirements; they are State requirements, which do not require
recovery of payments. The State agency added that the remaining category (i.e., unsupported
attendant service units) supports the conclusion that an overpayment was made but that the
deficiency does not support extrapolating to the population because (1) the finding does not
reveal a pattern of noncompliance and (2) the overpayment was within the tolerance limits
established by certain Federal programs.




                                                 ii
The State agency also said that the Federal Government’s requirement to recoup nearly
20 percent of the Federal funds Heritage received during the audit period is unreasonable,
particularly because we reviewed only 100 claims, or less than 0.03 percent, of the 363,903
claims Heritage submitted during the audit period.

The State agency’s comments are included in their entirety as Appendix E.

We stand by our reported findings and recommendations. The deficiencies cited in the report are
based on significant service-related requirements and are too numerous to be dismissed as
infrequent occurrences. Further, Federal requirements are applicable to the four categories with
documentation deficiencies because to be considered qualified as defined by Federal statutes and
regulations, attendants must meet State attendant requirements.

Regarding the State agency’s assertion that the findings do not reveal a pattern of
noncompliance, extrapolating the results of a statistically valid sample to a population has a high
degree of probability of being close to the results of a 100-percent review of the same
population. Our statistically valid estimates support our findings and estimated overpayment
amount.

In addition, pursuant to the Inspector General Act of 1978, 5 U.S.C. App., our audits are
intended to provide an independent assessment of U.S. Department of Health and Human
Services programs, operations, grantees, and contractors. The tolerance limits the State agency
cited in its comments about certain Federal programs do not apply to our audits.

Finally, if we had used a larger sample size, as State agency comments imply we should have,
the amount we recommended for recovery from Heritage probably would have been higher. A
larger sample size usually yields estimates with better precision without affecting the estimate of
the mean. Better precision would typically result in a larger lower limit for the confidence
interval of the estimate. Therefore, had we used a sample size larger than 100, the estimated
lower limit for the 90-percent confidence interval probably would have been a higher amount.
Also, guidance provided in the CMS Program Integrity Manual (subsection 3.10.4.3,
“Determining Sample Size”) states: “A challenge to the validity of the sample that is sometimes
made is that the particular size of the sample is too small to yield meaningful results. Such a
challenge is without merit ….”




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              New Mexico’s Personal Care Services Program .................................................1
              Federal and State Requirements...........................................................................1
              Personal Care Services Expenditures...................................................................2

         OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
              Objective ..............................................................................................................2
              Scope ....................................................................................................................2
              Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          ATTENDANT QUALIFICATION DEFICIENCIES .....................................................4
               Annual Training ...................................................................................................4
               Cardiopulmonary Resuscitation and First Aid Certifications ..............................5
               Tuberculosis Testing ............................................................................................5

          OTHER DEFICIENCIES ................................................................................................5
               Missing Prior Approval for Personal Care Services Provided
                by a Legal Guardian or Attorney-in-Fact..........................................................5
               Unsupported Units Claimed.................................................................................5

          EFFECT OF DEFICIENCIES .........................................................................................5

          RECOMMENDATIONS .................................................................................................5

          HERITAGE COMMENTS AND OFFICE OF INSPECTOR GENERAL
           RESPONSE....................................................................................................................6
               Conditions of Payment Versus Conditions of Participation ................................6
               Substantial Compliance .......................................................................................7
               Sampling Methodology........................................................................................7
               Units Claimed ......................................................................................................10
               Criminal Background Checks ..............................................................................10
               Tuberculosis Testing ............................................................................................10
               Cardiopulmonary Resuscitation and First Aid Certifications ..............................11
               Attendants Serving as Attorneys-in-Fact .............................................................11
               Training ................................................................................................................13

          STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
           RESPONSE……………………………………………………………………………13



                                                                    iv
                    State Agency Comments ......................................................................................13
                    Office of Inspector General Response .................................................................14

OTHER MATTER.....................................................................................................................16

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: REASONS FOR DEFICIENT CLAIM LINES

          D: HERITAGE COMMENTS

          E: NEW MEXICO HUMAN SERVICES DEPARTMENT COMMENTS




                                                                 v
                                       INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In New Mexico, the Human Services Department,
Medical Assistance Division (the State agency), is responsible for administering the Medicaid
program.

New Mexico’s Personal Care Services Program

The New Mexico personal care services program provides a wide range of services for the
elderly and individuals with a qualifying disability. The goal of the personal care services
program is to improve recipients’ quality of life and prevent them from having to enter a nursing
facility. The State agency requires recipients to obtain a physician authorization form that
documents the medical need for personal care services. For each recipient, the State agency
contracts with a third-party assessor that performs an in-home assessment to determine the types
and amounts of care needed and to develop a personal care services plan (PCSP). The third-
party assessor uses those assessments and the physician authorization forms to prepare
recipients’ weekly schedule of services, which typically are in effect for 1 year.

Federal and State Requirements

The State agency must comply with Federal and State requirements when determining and
redetermining whether recipients are eligible for personal care services. Pursuant to section
1905(a)(24) of the Act and implementing Federal regulations (42 CFR § 440.167), personal care
services may be provided to individuals who are not inpatients at a hospital or residents of a
nursing facility, an Intermediate Care Facility for the Mentally Retarded, or an Institution for
Mental Disease. The services must be (1) authorized for an individual by a physician pursuant to
a plan of treatment or, at the State agency’s option, otherwise authorized in accordance with a
service plan approved by the State; (2) provided by an attendant who is qualified to provide such
services and who is not the recipient’s legally responsible relative; and (3) furnished in a home
and, at the State agency’s option, at another location.

Office of Management and Budget Circular A-87 establishes principles and standards for
determining allowable costs incurred by State and local governments under Federal awards.
Circular A-87, Attachment A, section C.1.c., states that to be allowable, costs must be authorized
or not prohibited by State or local laws or regulations.

New Mexico Administrative Code (NMAC) section 8.315.4.9(A) states that personal care
services are delivered pursuant to a PCSP and (1) include a range of services to recipients who



                                                1
are unable to perform some or all activities of daily living because of a disability or functional
limitation(s); (2) permit an individual to live in his or her home rather than an institution and to
maintain or increase independence; and (3) include, but are not limited to, bathing, dressing,
grooming, eating, and shopping.

NMAC section 8.315.4.11A(17) states that provider agencies are responsible for maintaining
appropriate records of services provided to recipients. NMAC section 8.315.4.11 defines
(1) attendant qualifications related to tests for tuberculosis (TB), annual training,
cardiopulmonary resuscitation (CPR) and first aid training, and criminal background checks and
(2) the provider agency’s responsibility to maintain documentation on attendant qualifications.
NMAC section 8.315.4.11A(31) requires provider agencies to conduct a monthly supervisory
visit with each recipient or his or her personal representative in the recipient’s home. The State
agency periodically reviews personal care services provider agencies to ensure compliance with
Federal and State requirements. NMAC section 8.315.4.11A(21) requires the State agency to
review a written justification for, and issue an approval (if warranted) of, instances in which any
personal care services will be provided by the recipient’s legal guardian or attorney-in-fact.

Personal Care Services Expenditures

The Federal Government’s share of costs is known as the Federal medical assistance percentage
(FMAP). From October 1, 2006, through September 30, 2007, the FMAP in New Mexico was
71.93 percent; from October 1, 2007, through September 30, 2008, the FMAP was 71.04 percent.
The State agency reported to CMS personal care services expenditures of approximately
$433 million ($309 million Federal share) from October 1, 2006, through September 30, 2008.
Of that amount, Heritage Home Healthcare (Heritage), a personal care services provider in
Albuquerque, New Mexico, received $22,454,952 ($16,058,247 Federal share).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency ensured that Heritage’s claims for
reimbursement of Medicaid personal care services complied with certain Federal and State
requirements.

Scope

This audit covered the $22,454,952 the State agency paid to Heritage for 363,903 claim lines
(hereafter referred to as “claims”) for the period October 1, 2006, through September 30, 2008.
We limited our review of internal controls to the State agency’s oversight of personal care
services providers and Heritage’s procedures for maintaining documentation related to attendants
and recipients.

We conducted our fieldwork at the State agency office in Santa Fe, New Mexico, and at the
Heritage office and the third-party assessor’s office, which are located in Albuquerque, New
Mexico.

                                                  2
Methodology

To accomplish our objective, we:

       •   reviewed Federal requirements for the Medicaid personal care services program;

       •   reviewed State documents for the personal care services program: the New Mexico
           State plan amendment (Attachment 3.1-A, effective September 1, 2000) and the
           NMAC;

       •   interviewed State agency officials to gain an understanding of the personal care
           services program and the State agency reviews completed before the start of our
           fieldwork;

       •   obtained from the State agency all claims data for personal care services that were
           paid from October 1, 2006, through September 30, 2008, and reconciled the totals to
           the amounts claimed during the same period on the Form CMS-64, Quarterly
           Medicaid Statement of Expenditures for the Medical Assistance Program;

       •   totaled the paid-claims data by provider;

       •   selected Heritage to review based on payments for personal care services claims it
           received (totaling $22,454,952) for the audit period;

       •   selected a random sample of 100 Heritage claims (Appendix A);

       •   met with Heritage officials to gain an understanding of Heritage’s policies and
           procedures and of documentation in Heritage’s recipient and attendant personnel
           files;

       •   obtained recipient documentation from the third-party assessor and Heritage for each
           sampled item;

       •   identified the attendant(s) included in each sampled item and obtained documentation
           Heritage maintained in the corresponding personnel files;

       •   obtained from the New Mexico Department of Health documentation of criminal
           background checks on the identified attendants;

       •   evaluated the documentation obtained for each sample item to determine whether it
           complied with Federal and State Medicaid requirements;

       •   discussed the results of our audit with officials from CMS, the State agency, and
           Heritage;



                                                3
       •   gave Heritage an opportunity to provide any additional support for claims with
           deficiencies;

       •   calculated the value of the unallowable reimbursement Heritage received for the
           sampled items; and

       •   estimated the unallowable Federal Medicaid reimbursement paid for the 363,903
           claims (Appendix B).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency did not always ensure that Heritage’s claims for Medicaid personal care
services complied with certain Federal and State requirements. Of the 100 sampled items, 64
claims (totaling $3,837) complied with requirements, but 36 (totaling $2,243) did not. Those 36
claims contained a total of 41 deficiencies: 35 deficiencies on insufficient attendant
qualifications and 6 deficiencies on other issues. As a result, Heritage improperly claimed
$2,243 for the 36 sampled items.

See Appendix C for details of the deficiencies identified by sample claim.

Based on our sample results, we estimated that Heritage improperly claimed at least $4,483,492
(Federal share) for personal care services during the period October 1, 2006, through
September 30, 2008.

ATTENDANT QUALIFICATION DEFICIENCIES

Annual Training

NMAC section 8.315.4.11A(2) requires provider agencies to provide all attendants a minimum
of 12 hours of training per year; section 8.315.4.11A(33) requires provider agencies to maintain
in the attendants’ files copies of documentation that all training has been completed. For 28 of
the 100 sampled items, Heritage did not provide evidence that the attendants had completed 12
hours of annual training for the year of the dates of service.




                                                4
Cardiopulmonary Resuscitation and First Aid Certifications

NMAC section 8.315.4.11A(2)(d) requires provider agencies to maintain copies of all CPR and
first aid certifications in the attendants’ files and to ensure that these certifications are current. 1
For 6 of the 100 sampled items, Heritage did not provide evidence that the attendant was
certified in CPR and/or first aid on the dates of service.

Tuberculosis Testing

NMAC section 8.315.4.11A(37) requires provider agencies to ensure that their attendants obtain
a TB skin test or chest x-ray upon initial employment and to document the results of TB tests and
x-rays in attendant files. NMAC specifies that an attendant who tests positive for TB cannot
begin providing services until he or she receives appropriate treatment. For 1 of the 100 sampled
items, Heritage did not provide evidence that the attendant had received a TB skin test or chest
x-ray or that the attendant had tested negative for TB or had been appropriately treated before the
dates of service.

OTHER DEFICIENCIES

Missing Prior Approval for Personal Care Services Provided by a Legal Guardian or
Attorney-in-Fact

NMAC section 8.315.4.11 A(21) requires prior State agency approval for any personal care
services provided by the recipient’s legal guardian or attorney-in-fact. For 5 of the 100 sampled
items, Heritage did not provide evidence that the State agency had issued prior approval.

Unsupported Units Claimed

NMAC section 8.315.4.11A(13) requires provider agencies to maintain records that fully
disclose the extent and nature of the services furnished to the recipient. For 1 of the 100 sampled
items, Heritage did not have evidence to support the number of units it claimed for attendant
services.

EFFECT OF DEFICIENCIES

Based on our sample, we estimated that Heritage improperly claimed at least $4,483,492
(Federal share) for personal care services.

RECOMMENDATIONS

We recommend that the State agency:



1
  The entities that provided the training determined how long the certificates were valid, typically 2 to 3 years from
the date the attendants passed the courses.


                                                           5
    •   refund to the Federal Government the $4,483,492 paid to Heritage for unallowable
        personal care services and

    •   ensure that personal care services providers maintain evidence that they comply with
        Federal and State requirements.

HERITAGE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In its written comments on our draft report, Heritage disagreed with most of our findings.
Heritage’s comments, which we summarize below, are included in their entirety as Appendix D.

Along with its comments, Heritage provided documentation that it did not provide during our
review. After reviewing the documentation, we reevaluated some claims and determined that 15
complied with Federal and State regulations. 2 We revised the findings and recommendations
accordingly.

Conditions of Payment Versus Conditions of Participation

Heritage Comments

Heritage stated that recoupment is not an appropriate remedy for the deficiencies noted in the
report because compliance with personal care option (PCO) 3 services regulations is not a
condition of payment; it is a condition of participation. Heritage stated that in the context of the
False Claims Act, courts have frequently held that a provider is not liable for repayment or
recoupment for failures to comply with governmental regulations “unless, as a result of such
acts, the provider knowingly asked the government to pay amounts it did not owe.” Heritage
added that PCO regulations support recoupment of payments only when there is inappropriate
billing of services in accordance with NMAC section 8.315.4.11(A)(14) and that, with one very
limited exception, the basis for recoupment is not triggered by the various alleged deficiencies
outlined in the draft report.

Office of Inspector General Response

To provide a valid and payable service, personal care services must meet Federal requirements in
section 1905(a)(24)(B) of the Act and implementing regulations at 42 CFR § 440.167, which
require personal care services to be provided by a qualified attendant. To be a qualified
attendant in New Mexico, the attendant must meet the NMAC requirements related to the
attendant qualifications discussed above. Therefore, the NMAC attendant qualification
requirements are conditions of payment because an attendant who is not qualified cannot provide
valid personal care services as defined by Federal statute and regulation. We based the other


2
 We based our original findings and our reevaluations on NMAC section 8.315.4, which was implemented on
July 1, 2004, and was in effect during our audit period. The regulations have since been revised.
3
 In its comments on our report, Heritage used the terms “PCO” and “personal care option,” which are synonymous
with the term “personal care services” that we used throughout the report.

                                                       6
deficiencies we identified on regulatory requirements that are integral to the definition of
personal care services and that must be met for the services to be payable as medical assistance.

Substantial Compliance

Heritage Comments

Heritage stated that it was in substantial compliance with NMAC regulations. Heritage said that
the Tenth Circuit Court of Appeals had observed that perfect compliance was not a necessary
condition to receive Medicare reimbursement and that it believes the same is true for Medicaid
reimbursement. Heritage stated that at no time was the health or safety of any client at risk, nor
was care provided in a manner that would cause harm to its clients. Heritage added that we
failed to apply a reasonableness standard to compliance with the regulations. Specifically, we
based our recommendation on 6 of the 38 requirements in the regulations and failed to
acknowledge that Heritage had a 90-percent or better compliance rate for nearly all of those 6
categories. Heritage stated that many of the technical deficiencies that were noted relate to
requirements that the New Mexico Human Services Department does not impose on personal
care attendants under the consumer-directed care model. 4

Office of Inspector General Response

We evaluated each sample item for compliance with Federal and State regulations. In addition,
we based the attendant qualification deficiencies cited in the report on significant service-related
requirements. Taken as a whole, these deficiencies are sufficiently numerous and widespread to
be considered more than just technical deficiencies; they could affect quality of care. In
addition, all 363,903 claims in Heritage’s population were for services related to the consumer-
delegated model.

Sampling Methodology

Heritage Comments

Heritage stated that our recommendation for recoupment using an extrapolation ratio of 1 to
3,639 (i.e., our sample of 100 out of 363,903 claim lines) was unprecedented in New Mexico and
added that it disputed the statistical validity of both our sample size and extrapolation.

Heritage stated that our sample was not statistically valid because we did not rely on a valid
statistical procedure. Heritage said that we appear to have chosen a sample of 100 claims, not
based on any statistical analysis of the variance, or heteroskedasticity, of the pool (which is the
ordinary procedure for statistical sampling), but on the assumption that this would be sufficient
and, perhaps, on the simplicity of using a round number. Heritage added that this methodology

4
  Office of Inspector General note: New Mexico personal care services were provided under two models:
consumer-delegated and consumer-directed. The consumer-delegated model (NMAC section 8.315.4.11) placed the
responsibility for ensuring attendant qualifications (e.g., annual training) on the provider. The consumer-directed
model (NMAC section 8.315.4.10) did not place responsibility for ensuring attendant qualifications
(i.e., annual training, CPR and first aid certifications, and TB testing) on the provider.

                                                        7
is contrary to accepted statistical methodology, as well as the guidance provided in the CMS
Medicare Program Integrity Manual.

Heritage also stated that our sample rate of 0.0275 was insufficient to support our conclusions
because the number of claims (363,903), attendants (720), and clients (848) during the sample
period would be expected to exhibit variance. Heritage stated that the results demonstrate the
intrinsic variability of the sample and the need for additional sampling. Heritage added that no
court appears to have ever confronted such unreliable statistical analysis in a similar setting and
that courts have dealt only with actual statistical sampling that resulted in sampling rates
typically between 5 and 10 percent and only as low as 0.07 percent. Heritage stated that
traditional sampling estimates for this type of data require a sample rate of at least 2 percent,
adding that the high variability and extremely small sample size of this sample yielded unreliable
results when extrapolated to the universe of claims.

Heritage concluded by stating that it had conducted its own 100-percent review of the personnel
files of its 702 homemakers, personal care attendants, and home health aides and found that its
review supports the conclusion that our statistical analysis is invalid.

Office of Inspector General Response

Courts have long upheld the validity of using sampling and extrapolation in audits of Federal
health programs. 5 In particular, one court found that “[p]rojection of the nature of a large
population through review of a relatively small number of its components has been recognized as
a valid audit technique.” 6 Courts have not determined how large a percentage of the entire
universe must be sampled to be held valid; 7 however, the type of sample used here—a simple
random sample—is recognized as valid for extrapolation purposes. 8 Further, such statistical
sampling and methodology may be used in cases seeking recovery against States, individual
providers, and private institutions.9




5
  See, e.g., State of Georgia v. Califano, 446 F. Supp. 404, 409-410 (N.D. Ga. 1977) (ruling that sampling and
extrapolation are valid audit techniques for programs under Title IV of the Social Security Act); Ratanasen v.
California Dept. of Health Servs., 11 F. 3d 1467, 1471-72 (9th Cir. 1993) (ruling that simple random sampling and
subsequent extrapolation were valid techniques to calculate Medi-Cal overpayments); Illinois Physicians Union v.
Miller, 675 F. 2d 151, 155-56 (7th Cir. 1982) (ruling that random sampling and extrapolation were valid statistical
techniques for calculating Medicaid overpayments claimed against an individual physician).
6
    State of Georgia v. Califano, 446 F. Supp. 404, 409 (N.D.Ga. 1977).
7
    Michigan Department of Education v. U.S. Department of Education, 875 F. 2d 1196, 1206 (6th Cir. 1989).
8
    Ratanasen v. California Dept. of Health Servs., 11 F. 3d 1467, 1471-72 (9th Cir. 1993).
9
    Illinois Physicians Union v. Miller, 675 F. 2d 151, 155-56 (7th Cir. 1982).


                                                            8
We did rely on a statistically valid sample. 10 In Sample Design in Business Research,
W. Edwards Deming (1960) states: “An estimate made from a sample is valid if it is unbiased or
nearly so and if we can compute its margin of sampling error for a given probability.” We select
our samples according to principles of probability (every sampling unit has a known, nonzero
chance of selection). We use the difference estimator (an unbiased estimator) for monetary
recovery and recommend recovery at the lower limit of the 90-percent, two-sided confidence
interval. We use the sampling error in the computation of the 90-percent, two-sided confidence
interval. In addition, the term “heteroskedasticity” is ordinarily used in time series or regression
analysis; because we used a simple random sample and the difference estimator to arrive at the
estimates in the draft report, this term is not relevant.

If we had used a larger sample size, as Heritage’s comments imply we should have, the amount
we recommended for recovery from Heritage probably would have been higher. A larger sample
size usually yields estimates with better precision without affecting the estimate of the mean.
Better precision would typically result in a larger lower limit for the confidence interval of the
estimate. Therefore, had we used a sample size larger than 100, the estimated lower limit for the
90-percent confidence interval probably would have been a higher amount. Also, guidance
provided in the CMS Program Integrity Manual (subsection 3.10.4.3, “Determining Sample
Size”) states: “A challenge to the validity of the sample that is sometimes made is that the
particular size of the sample is too small to yield meaningful results. Such a challenge is without
merit ….”

The sampling frame for our sample was 363,903 PCO services related to direct attendant care
(procedure code T1019) for which Medicaid paid Heritage during the period October 1, 2006,
through September 30, 2008. From that list, we selected 100 services for our sample. Heritage’s
PCO services were not compared or extrapolated to Heritage PCO attendants or Heritage PCO
clients.

For Heritage to have conducted a 100-percent review of the population from which our sample
was drawn, Heritage would have had to review all PCO direct attendant care services provided
by the 702 homemakers, personal care attendants, and home health aides and reimbursed by
Medicaid during the period October 1, 2006, through September 30, 2008. Even if Heritage had
reviewed support for all 363,903 claims in the sampling frame, the result of that review would
not likely have been as accurate as the results of a sample review. The decision in New York
State Department of Social Services, DAB No. 1358 (1992), stated: “… sampling (and
extrapolation from a sample) done in accordance with scientifically accepted rules and
conventions has a high degree of probability of being close to the finding which would have
resulted from individual consideration of numerous cost items and, indeed, may be even more
accurate, since clerical and other errors can reduce the accuracy of a 100% review.”




10
  See Puerto Rico Department of Health, DAB (Departmental Appeals Board) No. 2385 (2011) (DAB upholding
disallowance of claims based on statistical sampling and statistical methodology that mirror those used in this audit).


                                                          9
Units Claimed

Heritage Comments

Heritage stated that it did not dispute our finding in the “Unsupported Units Claimed” section.
Heritage explained that the attendant wrote on the timecard that the client was in the hospital for
the claimed hour and that the billing was a clerical mistake, not a willful or fraudulent act.
Heritage said that it will reimburse the State agency for the hour.

Heritage added that it will voluntarily review all timecards from the period August 1, 2008,
through August 31, 2010, and repay any identified amounts received for time during which
clients were institutionalized.

Office of Inspector General Response

We did not imply that Heritage committed a willful or fraudulent act by billing 1 hour of service
for a client who was institutionalized. We questioned this claim because the time charged
overlapped with a hospitalization as indicated on the timesheet. We support Heritage’s efforts to
address this issue.

Criminal Background Checks

Heritage Comments

Heritage stated that it had located a letter from the State for the sample item in the “Criminal
Background Checks” section of the draft report and that the letter cleared the attendant to work.

Office of Inspector General Response

The documentation that Heritage provided addressed this deficiency. We removed this section
from the report.

Tuberculosis Testing

Heritage Comments

Heritage stated that it had provided us with documentation supporting negative TB test results
for some of the sample items in the “Tuberculosis Testing” section of the report but could not
provide the original negative TB test results for other sample items. Heritage also stated that
some of its attendants were not required to have a TB test because they were hired before the
effective date of the regulation in 2004 and that the requirements in the regulations were not
retroactive. However, Heritage provided TB questionnaires that it said were sufficient evidence
based on its practice of administering the questionnaires after attendants had received a negative
TB test result. Heritage stated that it has since sought and obtained negative TB test results for
the attendants identified in the audit who Heritage still employed.



                                                10
Office of Inspector General Response

The negative TB test results that Heritage provided addressed most of the deficiencies identified
in the report. In addition, we confirmed with the State agency that attendants hired before the
effective date of the regulation in 2004 and without a TB test should not be included in our
report. We revised the report accordingly. However, for the remaining deficiencies, we did not
accept Heritage’s assertion that TB questionnaires were sufficient evidence that attendants had
received negative TB test results. In accordance with NMAC section 8.315.4.11A(37), we
counted a sample item as deficient if Heritage could not provide medical documentation that the
attendant tested negative for TB from a TB skin test or chest x-ray.

Cardiopulmonary Resuscitation and First Aid Certifications

Heritage Comments

Heritage stated that it had provided documentation for some of the sample items listed in the
“Cardiopulmonary Resuscitation and First Aid Certifications” section. Heritage said that its
92-percent compliance rate demonstrates substantial compliance with the regulations and added
that attendant certifications that had lapsed during the date of service had been renewed.

Heritage stated that it has voluntarily taken steps to improve its compliance rate for these
certifications by ensuring that attendants will not be scheduled for work without proof of a
current CPR and first aid certification.

Office of Inspector General Response

We accepted the CPR and first aid certifications that Heritage provided for some of the sample
items and reduced the deficiencies noted in the report accordingly. Although we support
Heritage’s efforts to address this issue, we cannot accept Heritage’s assertion of substantial
compliance as a substitute for CPR and/or first aid certifications and maintain that our findings in
this report are correct.

Attendants Serving as Attorneys-in-Fact

Heritage Comments

Heritage stated that none of the deficiencies for the sample items in the section “Missing State
Agency Prior Approval for Personal Care Services Provided by Recipient’s Legal Guardian or
Attorney-in-Fact” constituted noncompliance with PCO regulations. According to Heritage, the
claims in this category should have been allowable for the following reasons:

   •   The attendant was not the attorney-in-fact for the recipient on the date of service.

   •   The date of the attorney-in-fact document and date of hire for the attendant preceded the
       implementation of the 2004 New Mexico regulation that required prior State agency
       approval.

                                                11
   •   Heritage was not aware of the attendant’s attorney-in-fact or legal guardian status as of
       the date of service and is not responsible for individuals who fail to report their status.

   •   The initial attorney-in-fact designation was revoked and persons other than the attendant
       were appointed.

Heritage stated that after our audit, it had initiated a plan to ensure that approvals are obtained or
that revocations are executed for all current employees who are a legal guardian or attorney-in-
fact.

Office of Inspector General Response

We reevaluated our findings for the sampled items on which attendants served as attorneys-in-
fact and reduced the deficiencies noted in the report for some claims but stand by our reported
findings for others. Specifically:

   •   We agree that the attendant was not the attorney-in-fact for the recipient on the date of
       service. Rather, the attendant was designated as an “alternate” attorney-in-fact.
       Although NMAC section 8.315.4.11A(21) requires the State’s prior approval for
       attendants designated as attorney-in-fact, it does not specify the process for obtaining
       approval for attendants designated as an alternate. As a result, we removed the
       deficiencies for those sampled items for which Heritage did not obtain prior approval for
       an attendant designated as an alternate and revised the draft report accordingly.

   •   State officials told us that attorney-in-fact documents existing before the 2004 regulations
       should have been submitted for approval within 60 days of the implementation date of the
       regulation. As of the date of our fieldwork, Heritage had not submitted these attorney-in-
       fact documents to the State agency.

   •   Heritage is responsible for monitoring its attendants’ status to ensure that attorney-in-fact
       or legal guardian designations are reported immediately. For the sample items in
       question, the attorney-in-fact document was dated before the date of service; however, it
       was stamped as received by Heritage a few days later. Nevertheless, Heritage did not
       submit the document for State approval as of the time of our fieldwork, which was
       approximately 2 years after the date of service. The regulations require prior State
       agency approval for an attendant to be an attorney-in-fact for a recipient.

   •   We agree that the subsequent designations appointed persons other than the attendant as
       the attorney-in-fact. NMAC section 8.315.4.11A(21) does not specify a process to
       revoke prior designations. In addition, it is reasonable to infer that the most recent
       appointment could effectively revoke, or supersede, any prior appointments. As a result,
       we removed the deficiency for the sampled item for which Heritage had received
       subsequent attorney-in-fact documents and revised the draft report accordingly.




                                                  12
Training

Heritage Comments

Heritage stated that it had provided documentation for some of the sample items listed in the
“Annual Training” section. In addition, Heritage said that it met the training requirements for 15
sample items involving training that occurred within 2 months of attendants’ date-of-hire
anniversary and that 11 other attendants had at least 9 hours of annual training, which was in
substantial compliance with the annual training requirement.

Heritage stated in an affidavit that training for the general competency test should have been
credited as 8 hours rather than 2 hours.

To ensure compliance with the regulations, Heritage stated that it has issued a policy requiring
designated personnel to begin auditing annual training for completion and compliance.

Office of Inspector General Response

We reviewed the documentation that Heritage provided and determined that some claims
complied with training requirements. We revised the report accordingly. However, Heritage’s
assertion of substantial compliance regarding other lapses with attendant training, including
training that occurred within 2 months of attendants’ date-of-hire anniversary and attendants who
had at least 9 hours of annual training, is not justified. The types of deficiencies we reported,
when taken as a whole, are sufficiently numerous and widespread to be considered more than
just technical deficiencies. Additionally, Heritage’s claim that we should credit those attendants
who completed the general competency training with more training hours than Heritage
originally granted based on its reevaluation of time to complete the training and topics covered is
speculative at best and beyond the scope of our audit.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

State Agency Comments

In its written comments on our draft report, the State agency disagreed that our findings support
the recommended refund amount. The State agency said that four of the five categories of
deficiencies (i.e., training documentation, CPR and first aid certification, tuberculosis testing,
and prior approval of legal guardian) involved no demonstrated overpayments and that the
deficiencies did not justify withholding Federal funds. Rather, the findings revealed that a few
files were missing a document necessary to satisfy a particular requirement for otherwise eligible
services. The State agency also said that the documentation requirements in question for these
categories are not Federal requirements; they are State requirements, which do not require
recovery of payments.

The State agency agreed that although one category (i.e., unsupported attendant service units)
supports the conclusion that a single overpayment was made, this deficiency does not support

                                                13
extrapolating the overpayment to all claims submitted during the 2-year review period. The
State agency added that this finding is too isolated and is clearly an aberration from Heritage’s
normal practices. The State agency said that the overpayment was less than 0.2 percent of all
claims reviewed in the audit, far less than the tolerance limits established in certain Federal
programs. 11 The State agency added that in these programs, standard Federal policy in such
circumstances is to seek recovery only for the overpayments identified and not to extrapolate the
results.

The State agency also said that the Federal Government’s requirement to recoup nearly
20 percent of the Federal funds Heritage received during the audit period is unreasonable
because we reviewed only 100 claims, or less than 0.03 percent, of the 363,903 claims Heritage
submitted during the audit period.

The State agency’s comments are included in their entirety as Appendix E.

Office of Inspector General Response

The deficiencies cited in the report, including annual training, CPR and first aid certification,
tuberculosis testing, and prior approval of legal guardianship, are based on significant service-
related requirements. Taken as a whole, these deficiencies are too numerous to be dismissed as
just a few missing documents, particularly because the deficiencies in question relate to quality
of care.

We disagree that the documentation requirements in question for four of the five categories of
deficiencies were not Federal requirements. To provide a valid and payable service, personal
care services must meet Federal requirements in section 1905(a)(24)(B) of the Act and
implementing regulations at 42 CFR § 440.167, which require personal care services to be
provided by a qualified individual. To be qualified in New Mexico, an attendant must meet the
NMAC requirements related to the attendant qualifications discussed above. Therefore, an
attendant who does not meet the NMAC attendant qualification requirements cannot provide
valid personal care services as defined by Federal statutes and regulations. We identified other
deficiencies based on regulatory requirements that are integral to the definition of personal care
services and that must be met for the services to be payable as medical assistance.

The methodology we used to select the sample and the methodology we used to evaluate the
results of that sample have resulted in an unbiased extrapolation (estimate) of Heritage’s
personal care services. As stated in New York State Department of Social Services,
DAB No. 1358 (1992), “… sampling (and extrapolation from a sample) done in accordance with
scientifically accepted rules and conventions has a high degree of probability of being close to
the finding which would have resulted from individual consideration of numerous cost items and,
indeed, may be even more accurate, since clerical and other errors can reduce the accuracy of a
100% review.”


11
  The State agency cited 42 CFR § 431.865 (which establishes a 3-percent tolerance limit for eligibility errors in the
Medicaid Eligibility Quality Control Program) and 45 CFR § 205.42 (1980) (an outdated regulation that established
a 4-percent tolerance limit for payment errors in the Aid to Families with Dependent Children program).

                                                         14
The Heritage sample was selected according to principles of probability (every sampling unit has
a known, nonzero chance of selection). In Sample Design in Business Research, W. Edwards
Deming (1960) states: “An estimate made from a sample is valid if it is unbiased or nearly so
and if we can compute its margin of sampling error for a given probability.”
The validity of the use of sampling and extrapolation as part of audits in connection with Federal
health programs has long been approved by courts. 12 In particular, “[p]rojection of the nature of
a large population through review of a relatively small number of its components has been
recognized as a valid audit technique.” 13 Courts have not determined how large a percentage of
the entire universe must be sampled to be held valid; 14 however, the type of sample used here—a
simple random sample—is recognized as a valid type of collection for extrapolation purposes. 15
Further, such statistical sampling and such a methodology may be used in cases seeking recovery
against States and individual providers or private institutions alike.16

Pursuant to the Inspector General Act of 1978, 5 U.S.C. App., our audits are intended to provide
an independent assessment of U.S. Department of Health and Human Services programs,
operations, grantees, and contractors. Therefore, the payment error tolerance limits that the State
agency cited for the Medicaid Eligibility Quality Control program and the Aid to Families with
Dependent Children program do not apply to our audits.

Finally, if we had used a larger sample size, as the State agency comments imply we should
have, the amount we recommended for recovery from Heritage probably would have been
higher. A larger sample size usually yields estimates with better precision without affecting the
estimate of the mean. Better precision would typically result in a larger lower limit for the
confidence interval of the estimate. Therefore, had we used a sample size larger than 100, the
estimated lower limit for the 90-percent confidence interval probably would have been a higher
amount. Also, guidance provided in the CMS Program Integrity Manual (subsection 3.10.4.3,
“Determining Sample Size”) states: “A challenge to the validity of the sample that is sometimes
made is that the particular size of the sample is too small to yield meaningful results. Such a
challenge is without merit ….”

The State agency did not provide any additional information that would lead us to change our
findings or recommendations.



12
  See, e.g., State of Georgia v. Califano, 446 F. Supp. 404, 409-410 (N.D.Ga. 1977) (ruling that sampling and
extrapolation are recognized as valid audit techniques for programs under Title IV of the Social Security Act);
Ratanasen v. California Dept. of Health Servs., 11 F. 3d 1467, 1471-72 (9th Cir. 1993) (ruling that simple random
sampling and subsequent extrapolation were valid techniques to calculate Medi-Cal overpayments); Illinois
Physicians Union v. Miller, 675 F. 2d 151, 155-56 (7th Cir. 1982) (ruling that random sampling and extrapolation
were valid statistical techniques to calculate Medicaid overpayments claimed against an individual physician).
13
     State of Georgia v. Califano, 446 F. Supp. 404, 409 (N.D.Ga. 1977).
14
     Michigan Department of Education v. U.S. Department of Education, 875 F. 2d 1196, 1206 (6th Cir. 1989).
15
     Ratanasen v. California Dept. of Health Servs., 11 F. 3d 1467, 1471-72 (9th Cir. 1993).
16
     Illinois Physicians Union v. Miller, 675 F. 2d 151, 155-56 (7th Cir. 1982).

                                                            15
                                     OTHER MATTER

In reviewing supporting documentation for 27 of the 100 sampled items, we found that Heritage
had charged $542 for time that the attendants billed for meal preparation and housekeeping
services even though the attendants and recipients lived in the same home. The State agency
paid a standard rate for each unit of time charged for attendant care regardless of whether the
attendant and recipient lived in the same home. During the scope of this audit, there were no
Federal or State regulations addressing payment for services provided by an attendant who lives
with the recipient.

The State has since amended its regulations (NMAC sections 8.315.4.16 and 17) to exclude
services covered under the New Mexico personal care services program that are a normal
division of household chores provided by a personal care attendant who resides with the
beneficiary.




                                              16
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of personal care services claim lines submitted by Heritage Home
Healthcare (Heritage) for Federal Medicaid reimbursement by New Mexico for the 2-year period
October 1, 2006, through September 30, 2008. A claim line represented unit(s) of service paid
(0.25 hour equaled 1 unit of service).

SAMPLING FRAME

The sampling frame consisted of 363,903 personal care services claim lines (totaling
$22,454,952) for the period October 1, 2006, through September 30, 2008.

SAMPLE UNIT

The sample unit was a personal care services claim line for which New Mexico reimbursed
Heritage.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 claim lines.

SOURCE OF RANDOM NUMBERS

We used Office of Inspector General, Office of Audit Services, statistical software to generate
the random numbers.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the sampling frame from 1 to 363,903. After
generating 100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used Office of Inspector General, Office of Audit Services, statistical software to estimate the
total value of overpayments.
               APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                    Sample Results

                                                                     Value of
            Value of                  Value of          No. of      Claim Lines
Sampling     Frame                     Sample        Claim Lines       With
 Frame      (Federal     Sample       (Federal          With        Deficiencies
  Size       Share)       Size         Share)        Deficiencies (Federal Share)


363,903    $16,058,247     100             $4,347        36                $1,605




                          Estimated Value of Overpayments
                (Limits Calculated for a 90-Percent Confidence Interval)
                                    (Federal Share)

                          Point estimate            $5,840,861
                          Lower limit               $4,483,492
                          Upper limit               $7,198,231
                                                                                                  Page 1 of 2


                    APPENDIX C: REASONS FOR DEFICIENT CLAIM LINES


       1 Missing evidence of annual training
       2 Missing evidence of cardiopulmonary resuscitation and/or first aid certifications
       3 Missing evidence of tuberculosis testing
       4 Missing prior State agency approval for personal care services provided by a legal
         guardian or attorney-in-fact
       5 Unsupported units of payment




                                                                   No. of               Sample Item
           No.         1       2       3        4       5        Deficiencies              No. 1
            1                          X                              1                      3
            2         X                                X              2                      9
            3         X        X                                      2                     12
            4         X                                               1                     15
            5         X                                               1                     18
            6         X                        X                      2                     19
            7         X                                               1                     23
            8         X                                               1                     24
            9         X                                               1                     26
           10         X                                               1                     27
           11         X                                               1                     30
           12                                  X                      1                     34
           13         X                                               1                     37
           14         X                                               1                     38
           15         X                                               1                     39
           16         X                                               1                     40
           17         X                                               1                     51
           18         X                                               1                     55
           19         X                                               1                     56
           20         X        X                                      2                     58
           21         X                                               1                     59
           22                  X                                      1                     62
           23         X                                               1                     63
           24         X                                               1                     64
           25         X                                               1                     65
           26         X                                               1                     66
           27         X                                               1                     72
           28         X                                               1                     74

1
    We include the “Sample Item No.” column as a cross-reference to the specific sample item.
                                                                                    Page 2 of 2


                                                       No. of           Sample Item
      No.        1      2      3      4      5       Deficiencies          No.
      29         X                                         1                81
      30                              X                    1                88
      31                              X                    1                90
      32         X                                         1                91
      33                X                                  1                92
      34                X                                  1                96
      35                X             X                    2                97
      36        X                                          1                98
     Total      28      6      1      5      1            41


Total deficiencies for “Attendant Qualification Deficiencies” (columns 1 through 3) is 35. The
total for “Other Deficiencies” (columns 4 and 5) is 6.
                                                                                                                             Page 1 0[20


                             APPENDIX D: HERITAGE COMMENTS




                              BANN ERMAN                 &     J OHNSON , P.A.
 _ _ _ _ _ _ _ _ _ _~Allorneys & Counselors at Law._ _ _ _ _ _ _ _ _ __
 REllocc.I. L   i\Vlll ~                                                                         n..-....F"M......N· 

 JOlIN A. l\AN!<1iI<.MA/'I                                                                       RIU' I, QuINT.....A· 

 MAROAAET A . GRAlL<M                                                                            GnRIIOtl   ~ ElS~J .T · 

 TlfOMAll P. GuLLEY'                                                                             DONAlJ) C. TltF(JC,' 

 DAV '"H. JOt1r<SOl'1 



                                                    October I, 2010
                                                                                                 File No. \805-001

V IA EMA IL & OVI<~RNIGHT n !i:LlVE RY
Ms. Patricia Wheeler
Regional Inspector General for Audit Services
Office of Inspector General
Office of Audit Services, Region VI
1\ 00 Commerce Street, Room 632
Dallas, Texas 75242
Em<lil: Palricia.Whcclcr@oig.hhs.gov

          Rc: Heritage Home Hcalthcare and Hospice 

                 OIG Report Number A-06-09-00063 


Dear Ms. Wheeler,

       We represent Heritage Home Healthcarc and Hospice tHeritage"), and write in response t&
your letter to Mr. Len Trainor dated Ju ly 26, 20 10, enclosing the U.S. Department of Health &
'-Iuman Services, Office of inspector General's (the " OIG'') Draft Report ent itled Review of New
Mexico '\1edicaid Personal Care Services Provided by TIerilage TIome Healthcare (the "D raft
Report"). As explained in this letter, Heritage disputes many of the O IO's findings contained in the
Draft Report, as well as the OIG 's recommendation for recoupment.

          I.           Global Conccrns Regarding the Draft Report and Recommcndations

        Heritage has three global conccrns regarding the Draft. R<:port lind its fl.lldings and
recommendations. First, the Draft. Repon almost exclusively addresses alleged deficiencies of
conditions of participation; however, the Draft Report recommends recoupment, which is
appropriate only for violations of conditions o f payment. Second, the Draft Report fails to
acknowledge Heritage's substantial compliance with the New Mexico Personal Care Option
regulations (the "peo regulations''). iieritage's substantial compliance with these regulations,
particularly as they have been interpreted by the New Mexico agency that promulgated them, makes
it inappropriate for the OIG to recommend recoupmcnt. This is especially tnte because the Draft
Report makes no suggestion and provides no evidence that any of the alleged deficiencies were
fraudulent. Third, the sampling of claim lines and the Draft Report's extrapolation thcreFrom is
mcthodologically unsound and unprecedented in New Mcxico, and therefore docs not support the
OIG's recoupmcnt recommendation.


                             2201 SA.'l PEDRO NE. BUILDING 1, SUITR207 . ALBUQUERQUE, NM 87110
                                                (' M) 837_1900 . FAX (50S) 837_1ROO
                                                    _1_DHJ@~            _
                                                       _ .MMCoooooI._
                                                                                                                     Page 2 0[20




BANNERMAN & JOHNSON. PA




Ms. Patricia Wheeler
October 1, 2010
Page 2

                     a. Conditions of Payment v. Conditiuns ofPadicipatiun

            The Draft Report alleges that Heritage was deficient as 10 severnl PCO regulations and
recommends recoupment of Medicaid dollars. Recoupment is not, however, an appropriate remedy
for the alleged deficiencies hecause compliance with the peo regulations is not a condition of
payment; it is a condition of participation. Conditions of participation arc those requirements
providers must meet in order to participate in the Medicaid program. Courts have frequently held,
in the False Claims Act context, that a provider is not liable for repayment or recoupment for
failures to comply with government regulations "unless, as a result of such acts, the provider
knowingly asked the government to pay amounts it did nolowe."[

       For example, the Kansas District Court, which, like New Mexico, is in the Tenth Circuit,
observed:

            To allow FCA suits to proceed where government paymcnt of Medicare claims is not
            conditioned on perfect regulatory compliance-and where HilS may choose to waive ,
            administrative remedies, or impose a lcss drastic sanction than full denial of
            payment-would improperl y permit qui tam plaintiffs to supplant the regul8tory
            discretion granted to HilS under the Social Security Act, essentially turning a
            discretionary denial of ,?,yment remedy into a mandatory pen<llty for failure tn meet
            Medicare requirements.

In affirming the Kansas District Court, the Tenth Cireuit further explained that "fejven if, as the
result of the survey, a provider appears noncompliant, the government docs not immediately
suspend Medicare enrollment or billing privileges. Rather, the rdevant regulations permit the
provider to create a plan of correction, and allow a reasonable period of time-usually 60 days-to
address any deficiencies.';) The Tenth Cireuit also noted that there arc no regulations or case law
"indicating that the government normally seeks retroactive recovery of Medicare payments for
services actually performed on the basis that the noncompliance rendered them fraudulent.'''

       TIle same is true here. First, Heritage did not seek payment from the New Mexico Human
Services Dt:partmcnt ("HSD") for types of services that Medicaid docs not cover and <111 services for
which Heritage sought reimbursement were provided to Medicaid beneficiaries as claimed.

I E.g.,   u.s. ex rcl. Williardv.   f/ulI/ono Health Pion, 336 FJd 375, 381·85 (5th Cir. 2003).
1 U.S. ex rei. Conner v. Salina Reg'l Health Clr_. Inc. , 459 F.Supp.2d 1081 . IOK7 (I), Kall. 20(6), alT'd 543 F.3d 1211
(101h Cir. 2008).
)u.s. ex rei. Conner v_ Sa/ina Reg"       Health CIT., Inc.. 543 F.3d 1211, 1220-21 (lOth Cir. 2008).
'ld.
                                                                                                                      Page 3 0[20




B"NN~RMAN     & JOHNSON, r.A.



Ms. Patricia Wheeler
October 1, 2010
Page 3

Moreover, with minor t:xceptions, Heritage adhered to the provisions HSO's Medical Assistance
Division ("MAO") provider participation agreement and all applicable statutes, regulations, hilling
instructions and I;:xecutive orders. Second, as discussed furtllcr below, Heritage conducted an
internal rev iew, created a plan of correction, and addressed all deficiencies noted by the OIG.
Third, while slatt: regulations list numerous criteria related to the coverage of personal care option
services under the Medicaid program, none of those criteria require compliance with the consumer­
delegated peo regulations as a condition ofrcimburscmcnt. s

        Reviewing the regulation as a whole, we could not find support for the position that payment
for services is conditioned upon compliancc with every subscction of the PCO regulations at
NMAC 8.315.4.11 A. The only discussion of recoupment is contained at NMAC 8.315.4.II(A)(14).
This subsection states that PCO agcncies must pass random and targcted audits, conducted by HSD
or its audit ag!;nt to cn~ure that the agencies arc billing appropriately for serviccs rendcrcd. Thc
regulation also expressly states that "the department or its designee will seek recoupmt!nt of funds
from agencies when audits show inappropriatc billing for serviccs.',6 Therefore, the only basis for
recoupment provided for in the PCO regulations arist!s solely when a provider has inappropriately
billed for services. With one very limited exception discussed below, this basis for recoupmcnt is in
no way triggered by the various alleged ddiciencies outlined in the Draft Repon. lndec<l,
historically, HSD has used corrective action plans, sanctions or a combination of both - but not
repayment - (0 address providers' deficiencies as to conditions of participation, like the vast
majority ofthose identified in the Draft Report. 7 We understand thallhis remains HSD policy.

                  b. Substantial Compliance

         At all times during thc audit period, Heritagc was in substantial compliance with the PCO
regulations. Por Medicaid survey and certification purposes, "substantia! compliance means a level
of compliance with the requirements of participation such that any identified deficiencies pose no
grt:ater risk to resident health or safety than the potential for causing minimal harm."! Moreovcr, as
the Tenth Circuit has observed, "although the government considers substantial compliance a
condition of ongoing Medicare participa1iQ/~ it docs not require perfect compliance as an absolute


, NMAC 8.315.4.13, 8.315.4.14 .
• NMAC 8.315.4.ll(A)(I.4).
1 See NMAC 8.351.2 (Sanctions and Remedies). II is wonh noting again here that the Draft Report makes no
suggestion and presents no evidence suggesting lhat any ofth" alleged deficiencies are due to any fraudulent conduct by
t terilage. 'l11crefore, even under the available sanctions and remedies available to II SD for violations of conditions of
panicipatiolJ, the penalties to which Heritage would be subject to remain limited nnd do nOl come anywhere close to Ihe
magnitude of the fttommendation in the Dran Report .
142 C.F.R. § 488.30 I.
                                                                                                                          Page 4 0[20




fJAl':"NERMAN   & JOH NSON, 1'.1\.



Ms. Patricia Wheeler
Octoher 1, 2010
Page 4

condition to receiving Medicare payments for services Tl::nuered."g The same is equally true here as
to Medicaid particip..'1lion and payments - perfect compliance is nat necessary. Importantly, at no
ti me was the health or safety of any client al risk nor was care rendered in such a manner that would
cause harm to Heritage's clients.

         Finally, the O IG failed to apply a reasonableness standard to compliance with the
regulations. First, New Mexico's regulations are comprehensive and arc intended to provide
policics related to the operation of Ihe Medicaid program, including those regarding provider
el igibility, covered and non-covered services, utilization review, and provider rcimbu rsement.l~
The OIG based its recommendation on six out of38 requirements in the regulations. Even accepting
this sehxtion, however, the Draft Report wholly fails to acknowledge that Heritagc did huw II 90
percent or better compliance rate for nearly everyone of the six categorics. 11 Second, the OIG has
not demonstrated that strict adherence to every aspecl of the regulation at issue guaranLCcs better
carc for clienls. 12 Moreover, many of the technical deficiencies thaI were noted relate to
requirements that HSD docs not impose on personal care altcndanlS in other settings, i.e. the
consumer-directed care mode1. 1l Certainly Heritage's clients would have been at a greater risk of
haml by nol receiving services at all. We believe that Heritage was in substantial compliance with
the spirit and intent ofNMAC 8.315.4.11A.

                    c. Sampling a nd Extrapolation

       The Draft Report relics on a sampling of 100 out of 363,903 claim lines, and then makes a
recOIlU11cndation for recoupment using an extrapolation ratio of 1 to 3,639. This sort of


•u.s. "-'" rei. COllller. 543 f .311 at 1221 (emphasis in original).    Case Jaw in New Mexico is consistent with Ihe po~ilion
of Ihe federal cou". For ~x~mple in GUlierre: v. City of Albuquerque, 631 P.2d 304, ]07 (N.M. 19KI), the Supreme
COli" of New Mexico stated thai "[s]ubstantial compliance has occllrred whcn the statute has been sufliciently followed
so as to carry 0111 Ihe intent for which it was adoplell and serve the purpose of tile ~UI\ulc.~ And, in l-nne v. tone, 919
P.2d 290, 295 (N.M . Ct. App. 1996). the New Mexico Cou" of Appeals slated Ihat "[t[he legisl3!u re can ... expeci thai
when one of its orders (i.e, a law) is 10 be carried out, Ihose who have that duty (i.e., the cou/1s) will disccm its purpose
an ll act in accordance wi lh ilS ",,~ellce ifnot neces:;arily its leUer."
<0 NMAC &.315.4.6.
" See i".!ro.
" As one example of what such a reasonable standard would entai l. we note that Ihe New York Office oflhe Medicaid
Inspector Genera l ('"OMIG ") has reviewed Ihe maner of substantial compliance wilh rcgard to training in the home
health arena. [n draft guidance, the OMIG instructed that disallowances should not b.., laken "if lhe provider has deceltl
cOnlrol s in place and, in a cuup[e ufsitu3lions, Ihe aide was sho" a few hOllrs _ espec ially when Ihey havc documented
some reiiSUnabie explanation." Available at /!!!p;l/www.hca·nys.orgldocumcntslCHHAOMIGI.rOIQCO[s.pdf. We
believe the O [G should take a similar posit ion here.
a See NMCA 8.3 [S.4. [O(BXI 1)(2004).
                                                                                                                 Page 5 0[20




BANNERMAN & JOHNSON, P.A.



Ms. Patricia Wheeler
October 1,2010
Page 5

extrapolation is unprecedented in New Mexico. Historically, HSD does not extrapolate from its
audit findings. To our knowledge, this is equally true of the other New Mexico Departments. This
is likely because the New Mexico regulations do not support extrapolation.

        Even if extrapolation was permissible and supported by New Mexico regulations, Heritage
disputes the statistical validity of both the sample size and the extrapolation in the Draft Report.
The OIG's statistical analysis suffers from prima facie errors that render it incapable of supporting
the Draft Report's recommendations. First, because the audit did not rely on a valid statistical
procedure, the resulting sample is not statistically valid. The OIG appears to have chosen a sample
of 100 claims, not based on any statistical analysis of the variance or heteroskedasticity of the pool
(which is the ordinary procedure for statistical sampling), but instead appears to have chosen 100
srunple claims based on thc assumption that this would be sufficient and, perhaps, based on the
simplicity of using a round number. I4 This is contrary to well-accepted statistical methodology as
                                                                       IS
well as the guidance provided in the eMS Program Integrity Manual.

        Second, OIG's 0.0275 percent sample rate is insufficient to support its conclusions. The
records for a company with approximately 702 attendants,I6 848 clients, and 363,903 claims during
the sample period would be expected to naturally exhibit significant variance. Indeed, the results
demonstrate the intrinsic variability of the sample and the need for additional sampling. No court
appears to have ever confronted such unreliable statistical analysis in a similar setting; courts have
dealt only with actual statistical sampling that resulted in sampling rates typically between 5
percent and 10 percent, and only as low as 0.7 percent. 17 Indeed, traditional sampling estimates for
this type of data - even assuming that the population was not highly variable - require a sample rate




14 We note that the OIG habitually selects a sample size of 100 claims without regard to the number of claims in the

universe. For example: "Review of Personal Care Services Claimed by the Center for Living and Working, Inc. ," (A­
D1-06-000 11), sam ple size= 100, universe= 4,466 payment years; "Audit of Medicaid Costs Claimed for Personal Care
Services by the Minnesota Department of Human Services, October I, 1998 Through September 30, 1999," (A-05-0 1­
00044), sample size= 100, universc= 211 ,000 claims.
lj   CMS Medicare Program Integrity Manual, Ch. 3 § 3.10.
16   This number is as of April I, 2010.
17 See Goldslar Medical Servs., Inc. v. Dept. of Soc. Servs., 955 A.2d 15 (Ct. 2008) (2.7% sample rate); Harris v.
Bernad, 275 F. Supp. 2d I (D.D.C. 2003) (0.7% sample rate); Pruchniewski v. Leavitt, 2006 WL 2331071 (M.D. Fla.
2006) (5% sample rate); Scottsdale Mem'/ Health Sys., Inc. v. Maricopa County, 228 P.3d 117 (Ariz. Ct. App. 2010)
(reaching a 95% confidence interval to 6% samp le rate); Chaves County Hom e Health Serv., Inc. v. Sullivan, 93 1 F.2d
                                                                                                   th
914 (D.C. Cir. 1991) ( 10% and 3% sample rates); Ill. Physicians Union v. Miller , 675 F.2d 151 (7 Cir. 1982) (27%
sample rate).
                                                                                                                    Page 6 0[20




Bi\NI..:ERMAN & JOHNSON, I'.A.



Ms. Patricia Wheeler
October 1,20 10
Page 6

of at ieml 2 percent. 1S Here, the high va riable and extremely small sample size yields unreliable
results when extrapolated to the universe of claims. 19

         Following the OIG's audit, Herit'age conducted its own 100 percent review or the pcn>onne1
files of its 702 homemakers, personal care attendant~, and home health aidcs. Heritage's review
supports the conclusion that the GIG's statistical analysis is invalid. For example, out of the 702
files, Heritage found that only tCll, or J.4 percent of the files, were missing evidence of CPR
certification. However, the OIG 's analysis led to a conclusion that 9 percent of the claims involved
insufficient CPR certificatiOIl. "nus example, coupled with the methodological problems in the
Draft Report's statistical analysis, demonstrates that extrapolation across the universe yields an
inappropriate result.

         ll.      Categories of Compliance

       In addition 10 the concerns above, many of thc Draft Rcpon's factual findings are
exaggerated and factually inaccurate, The Draft Report identified six areas in which it alleges
Heritage is missing evidence that the services provided complicd with the peo regulations. These
areas arc units claimed, criminal background checks, tuberculosis testing, first aid and
cardiopulmonary resuscitation ("CPR") ccrtifications, and services provided by legal guardians or
attorneys-in-fact. The issues raised by the Draft Report in eilch of these categories of compliance
arc address~ below in detail.

                  u.   Units Claimed

        Only one out of 100 sample item numbers (number 9) was identified in the Draft Report as
having "Unsupported Units Claimed." Contrury to the suggestion in the Dran. Report, we believe
Heritage'S 99 percent compliance with the PCO regulation's requirement for full documentation of
serviccs rendered to be reasonable. This is especially true when considering the alleged deficiency
with sample item nille, i.e. that one hour of recorded time (out of a week of nearly 30 hours) is at
issue. Notwithstanding, Heritage docs not dispute that the one hour oftime captured in sample item
nine that was recorded on April 29, 2007, was mistakenly billed under the PCO regulations becaus~,
as set forth on the timecard, the client was in the hospital during that one hour. Bccause Heritage


" See, e.g" Jamc~ E. Oartlcl!, II, el aI., Org",,;zat;unal Re.feurch: Determining Appropriate Sample Size in Survey
Research, JnfOTlllat;on Technology. Learning and Performance Journal, Vol. 19, No. J, Spring 200 I at 43.
19
   11 is unclear from the Draft Report whether the OlG used RAT·STATS for selecting its statistical sample. The Draft
Report statCll only that "Office ofJnspcctor Gcneral, Offke of Audit Services statistical software" was used "to generatc
random numbers" and ·'to estimate the 100ai value of overpaymenlll." We believe we are entilled to a fair opportunity to
examine lhe software. If the OIG is referring to a prognun other limn RAT·STATS, we should have the opportunity to
review and evaluate the program to deteTllline whether it can produce a statistically vatid sample.
                                                                                                                    Page 70[20




Ms. Patricia Wheeler
October 1,20 10
Page 7

acknowledges that this time was mistakenly billed; Heritage is voluntarily re paying the $12.28 it
was paid for this one hour in dispute.

         Heritage does not beli(;!vc, however, that the mistake captured in sample item nine
constitutes any more than a clerical mistake. The facts demonstrate that thc billing of onc hour
when the cl ient was institutiunalized was in no way a willful or fraudulent act by Heritage. Indeed,
the attendant wrote on the relevant timecard that the client was institutionalil.ed on April 29, 2007,
duri ng the one hour of recorded time. It is Heritage's policy 10 pay attendants for their lime in these
sorts of situations, which is what Heritage did in this instance. Due \0 a clerical mistake, however,
the one hour was also billed to Medicaid. By way of explanation, another Heritage payor does pay
for time spent by an attendant despite institutionalization orlhe client If the attendant and Heritage
were unaware of the institutionalization when thc attcndant was sent to the client' s homc. Heritage
believes that the one hour identifi ed in sample item nine likely was accidentally billed with this
other payor's policy in mind.

         Nonetheless. to cnsure that there are no other instances where Heritage billed for an
attendant' s time when the client was institutionalized, Heritage voluntarily initiatcd a 100 perccnt
review of al1timeeards from August 1, 2008, through AugtL~t 31 , 2010, for this issue. Heritage
anticipates that it will complete its internal audit in November 2010 and, upon completion, will
rcpay any identified amounts that were reccived for an attendant's time during a client's concurnmt
institutional ization.

                  b. Criminal B ~l ekgro und Cheeks

       Only onc out of 100 claims was identified in the Draft Report as "Missing Evidcnce of
Criminal Background Checks." This sample item was number 76. Howevcr, as demonstrated in
thc sample-by-sample binders 2o, IJeritage is 100 perccm compliant with thc criminal background
check requirement. Speci fi cally, since receiving thc Dmfi Rcport, Heritage has located the letter
from the New Mexico Dt:partment of l-It:alth, dated May 13, 2002, notifying Heritage that the
attendant for number 76 had "no di;;qualifying convictions" and providing fi nal clearance ·for the
attcndant 10 work as a peo attendant.




1J>Three binders were sent via overnight delivery by cover dated September 30, 20 tO. These binders arc entitled (I )
Samp le·by·Sample I.)ocumentalion, vo l. J; (2) Sam ple.. by·S~mple I.)()(:umentation, vol. 2; and (3) General Competency
Tminins. The bindtrs are referenctd throughout this letter and were submitted as addition~1 documentation to support
Heritage's finding.:; . To the extent the contents of the binders are subjed to the Freedom of Infonnalion Act ("FOIA',),
they are protected from release under FOIA exemptions (b)(4), (b)(6) and (b)(7).
                                                                                                                  Page 80[20




BANNERMAN & JOHNSON, P.A.



Ms. Patricia Wheeler
October 1, 2010
Page 8

                      c. Tuberculosis

        The Draft Report identified 13 files with "Missing Evidence of Tuberculosis Testing."
These 13 files correspond with sample item numbers 3,19,27,37,39,50,54,55, 77,86,88,91 and
98. Since your last correspondence with Heritage, we have located the attendant's original
tuberculosis test results corresponding to sample item numbers 27, 54, 55 86, and 88. These
original tuberculosis test results arc included in the sample-by-sample binders. These results reduce
the number of fi les at issue as to tuberculosis testing to eight.

        For five of the remaining eight, i.e. numbers 3, 50, 77, 91 and 98, we believe the files do
contain sufficient "Evidence of Tuberculosis Testing" because they contain tuberculosis
questionnaires. It was Heritage's routine business practice to administer tuberculosis questionnaires
to attendants only after the attendant had been tested for tuberculosis. Indeed, a reminder to obtain a
tuberculosis questionnaire was only entered into the Heritage database after the original tuberculosis
test or x-ray results were received. Heritage's routine practice of obtaining tuberculosis
questionnaires only for those attendants for whom it had already received a negative tuberculosis
test result demonstrates that Heritage did, in fact, have negative test results for sample item nwnbers
3, 50, 77, 91 and 98. "Evidence of ... the routine practice of an organization ... is relevant to
prove that the conduct of the ... organization on a particular occasion was in conformity with the
habit or routine practice.,,2 1 This type of routine practice, importantly, is not "a second-class
                                                                        22
category" of evidence; it is evidence equal to that of any other form.

        In In re Swine Flu, for example, the court heard testimony that the Jefferson County Health
Department had a routine practice of obtaining signed consent forms prior to administering a
vaccine. 23 Despite this routine practice, there were no signed consent forms located or presented by
the Jefferson County Health Department for the date on which the plaintiff received her vaccine,
                                                                                  24
and when the plaintiff claimed she did not provide signed, informed consent.         Faced with this
evidence and the missing signed consent form by plaintiff, the court held that the Jefferson County
Health Department's routine practice evidence established that it had obtained written, informed
                                                   2l
consent from the plaintiff on the date in question


21   Fed. R. Evid. 406.
 In re Swine Flu Immunization Prod. Liab. Litig. , 533 F. Supp. 567, 573 (D. Co lo. 1980) (quotation omitted); see also
22
Meyer v. United Slales, 464 F. Supp. 3 17, 320~2l (D. Colo. 1979) (holding that a dentist's practice on a particular
occasion conformed with bis routine practice of obtaining informed consent, despite directly contradictory testimony of
the   patient~p laintiff).

23   533 F. Supp. at 574.
24/d.    at 573.
2~ /d.   at 573·74.
                                                                                                                    Page 9 0[20




BANNERMAN      & JOHNSON, P.A.



Ms. Patricia Wheeler
October 1, 2010
Page 9

        The court's analysis and decision are equaUy applicable here. Admittedly, Heritage cannot
provide the original negative tuberculosis test results for sample item numbers 3, 50, 77, 9 1 and 98.
It can and has, however, provided evidence that it has tuberculosis questionnaires for each of the
attendants for these sample items, and that its routine practice was not to administer these
questionnaires to attendants unless a negative tuberculosis test result or x-ray reading already had
been received. According to the Federal Rules of Evidence, this is sufficient evidence that Heritage
did indeed have negative tuberculosis test results for sample item numbers 3, 50, 77, 91 and 98.
This brings the number of files at issue as to tuberculosis testing to three.

         Of the rcmaining three, we believe that two cannot be treated as deficiencies because they
relate to attendants who were hired prior to the effective date of the 2004 peo regulations and, thus,
prior to the tuberculosis testing requirement contained therein. The corresponding sample numbers
for attendants hired prior to the tuberculosis testing requirement are numbers 37 and 39. Under tile
2004 peo regulations, peo agencies were required to "obtainD a current tuberculosis (TB) skin
test or chest x-ray upon initial employment.,,'6 Under the Original peo regulations, however, there
was no requirement for peo agencies to obtain or maintain documentation of attendants'
tuberculosis testing upon initial employment. 27 Importantly, as to tuberculosis testing, the effective
date for the 2004 peo regulations was July 1,2004 (the "2004 peo regulation's Effective Date")."
The attendants for sam~l e item numbers 37 and 39 were hired on March 17, 2004, and September
29,2000, respectively.'

       Moreover, under New Mexico law, the 2004 peo regulations' tuberculosis testing
requirement was not retroactive. "New Mexico law presumes that statutes and rules apply
prospectively abscnt a clear intention to the contrary.")O This rule applies even more so when the
change in the statute or regulation is "not a mere change in procedure, but a change affecting
substantive rights; and, as to such statutes, the rule is well settled that they will not be given a

16   NMAC 8.315.4. 11(A)(37) (2004).
" See generally NMAC 8.4.738 (2000).
"NMAC 8.315.4.5 (2004).
29 Note that sample item numbers 50, 77 and 91 also correspond with attendants hired before the effect ive date of the
2004 peo regu lations, and thus the tubercu losis testing requ irement contained therein . The attendants for sample item
numbers 50. 77 and 91 were hired on July 13,2003; March 3, 2004; and December 11,2001. respectively. It appears
from the files of these attendants, however. lhat Heritage did obtain negative test results because, as discussed above,
Heritage has documentation of tubercu losis questiollilaires from these attendants. Should OIG determine that these
questionnaires are insufficient evidence of the attendants' negative tuberculosis testing results, despite the business
practice evidence to the contrary, then sample item numbers 50, 77 and 91 still should not be treated as deficiencies
because, like sample item numbcrs 37 and 39, they con'espond with attendants hired before the tuberculosis testing
requirement becamc.effective.
)0   Howell v. Heim, 118 N.M. 500, 882 P.2d 54 1 (N.M. S. Ct. 1994)(citation omitted).
                                                                                                                          Page 10 0[20




        BANNERMAN       & JOHNSON , P.A.



        Ms. Patricia Wheeler
        October 1,2010
        Page 10

        retroactive effect unless it clearly appears that the Legislature so intended.,,31 Here, the requirement
        for tuberculosis testing added by the 2004 PCO regulations was a substantive change, not a
.-J 	   procedural one, and there is no indication in tbe relevant portions of the 2004 PCO regulations that
        this substantive change was to apply retroactively. Therefore, the New Mexico presumption against
        ret.roactive application of regulations and statutes coutrols and attendants bired prior to the 2004
        PCO regulations' Effecti ve Date did not have to be retroactively tested for tuberculosis.

                Finally, we believe it is important to note that despite any discrepancies alleged by the OIG,
        the quality and safety of Heritage's services were not diminished. This is particularly tme in light
        of the absence of any requirement for tuberculosis testing of attendants providing Personal Care
        Option services under the Consumer-Directed modeL 32 Nonetheless, as part of its efforts to ensure
        that Heritage provides quality and safe services to its clients, Heritage sought and obtained negative
        test results for the attendants identified in the OIG audit that were still employed by Heritage, but
        for whom Heritage did not locate their original negative test results.

                    '~.niple           !!ilite ofB        Dale of, ~~~f            T~~    Of         J'OSI-A~~t,I§~
                        ~t~~"'o.       : '~                                        Ter j; atiolt'    ~tResults
                     4''it    "                         Iii,' \)oj        fi   ·
                                                                                   "" 4113109
                                                                                         ~
                             3             9127106               1211 107                           ""    NA        .oJ
                             19            9121105                   815107           2127108             NA

                             37            3117104              11 121106             5128107              NA

                             39            9129100              11/12/06             10116107             NA

                             50            711 3103              1120108              7124108              NA

                             77            313104               1211 4107            1111 8109             NA

                             91            12111101              311 5107               NA               12128109

                             98            5125105                   314107             NA                812110




        11   Wilson v. New Mexico Lumber & Tim ber Co. , 42 N.M. 438, 8 1 P.2d 61, 63 (1938) (quotation omitted).
        12   See NMCA 8.315.4. IO(BXI I) (2004).
                                                                                                                       Page 11 0[20




BANNERMAN & JOHNSON, P.A.




Ms. Patricia Wheeler
October 1, 20 10
Page II

The results of the additional tests for the attendants stil1 with Heritage reveal that none of these
attendants have tuberculosis. For reference, these test results are included in the sample-by-sample
binders. J3

                  d. CPR/First Aid Certifications

        The Draft Report identified ,tine out of the 100 sampled claims for which Heritage is
allegedly "Missing Evidence of [CPR] and First Aid Certifications." These sample item numbers
are 12, 31, 37, 58, 62, 84, 92, 96 and 97 . Since receiving the Draft Report, Heritage has located
sample item number 84's CPR and First Aid Certifications for the Date of Service at issue.
Documentation of these certifications is contained in the sample-by-sample binders. This brings tbe
total number of sample items at issue to eight. We strongly believe that Heritage's 92 percent
compliance as to CPR and First Aid Certifications demonstrates substantial compliance with the
PCO regulations.'4 This is particularly true because, for at least six out of the remaining eight
sample items identified in the Draft Report, the attendant was competent to provide CPR and First
Aid to the client if needed."


33 In addition to Heritage 's cfforts as to the attendants identified by the Draft Report, this year Heritage also performed a
100 percent audit of its personnel fi les as to tuberculosis test documentation . In response to that internal audit, Heritage
sought a nd obtained tuberculosis tests for those employees whose files did not contain an original, negative tuberculosis
test. All of the tests were negative except one for an attendant who was subsequently cleared via x-ray.
34 We have determined that Heritage's current compliance with the CPR and First Aid Certification requirements in the
peo regulations   is, in fact, much higher than 92 percent. On April 1, 2010, Heritage initiated a file aud it of the 702
then-current Homemakers, Personal Care Attendants, and Home Health Aids in its employment. As a part of that audit,
Heritage verified the ex istence andlor vali dity of over 51,948 documents, 47,736 of which were in the employees' fi les.
In thi s comprehensive audit, Heritage determi ned that only 1.4 percent of its emp loyee files were missing the necessary
CPR andlor First Aid Certifications. By this count, Heritage is in 98.6 percent compliance with the regulations on CPR
and First Aid Certifications; an extremely hi gh compl iance rate.
35 The attendants for these six samp le items already had received CPR and First Aid certifications that, while lapsed
during the Date of Service at issue, were thereafter renewed.




                   31            9/12/07                7/04 to 7/06                    10/08 to 101 10

                   62            3/26/08                1/06 to 1/08                     4/08 to 4/ 10

                   92             1/7/08                3/05 to 3/07                     3/08 to 3110
                                                                                                                  Page 120[20




BANNERM AN & JOHNSON, P.A.



Ms. Patricia Wheeler
October 1, 2010
Page 12

        Finally, it should be noted that the attendant for sample item number 58 did have her CPR
Certification for the date of service at issue in the Draft Report. And, while that attendant did not
have First Aid Certification at the time of the Date of Service, the attendant did subsequently obtain
that Ccrtification. Taken together, it is clcar that Heritage can demonstrate substantial compliance
with the CPR and First Aid Certification requirements of the PCO regulations, and that Heritage's
clients receive their care from competent, appropriately trained attendants. Nevertheless, Heritage
voluntarily has taken efforts to improve its compliance rate as to CPR and First Aid Certifications to
100 percent. Effective as of April 2010, Heritage has instructed its records supervisor, office
supervisor and executive director to ensure that attendants will not be scheduled for work absent
effective proof of current CPR and First Aid Certifications. As a double-check, the office
supervisor wi ll also review the attendants scheduled to work every week to confirm each has current
CPR and First Aid Certifications.

                 e. Attendants Serving as Attorneys-in-Fact

        The Draft Report identified eight sample item numbers as allegedly deficient because of
"Missing Evidence of Services Provided by Legal Guardian or Attorney-in-Fact." These alleged
deficiencies relate to Heritage's purported failure to obtain prior approval from thc MAD for the
attcndants to serve as a legal guardian or attorney-in-fact to the clients for sample item numbers 19,
34,39, 62, 88, 90, 93 and 97. Preliminarily, it should be noted that both sample item numbers 34
and 90 relate to one attendant-client pair, and both sample item numbers 62 and 93 relate to another
attendant-client pair. Thus, the Draft Report's deficiencies in this area only relate to six legal
guardianlattorney-in-fact attendant-client pairs.

        As to these six pairs, none of the alleged deficicncies constitute Heritage's failure to comply
with the PCO regulations. First, as to sample item numbers 62 and 93, the attendant was not the
attorney-in-fact for the client until April 21, 2009, which was after both the Dates of Service at issue
in the audit, i.e. March 26, 2008 and August 18,2007. Therefore, Heritage could not have obtained
approval of the attendant's appointmcnt as attorney-in-fact before the Date of Service because the
Power of Attorney was not yet in existence.


                   96           9/4/07               3/05 to 3/07                   11 /07 to 11 /09

                   97          10112/07              2/05 to 2/07                   11 /07 to 11/09


The lapse of a formal certification shou ld not be taken as an indication that Heritage clients received substandard care
because the Consumer-Directed model of the Personal .Care Option program does not require attendants to be CPR and
First Aid Certified. NMCA 8.3 15.4.10(8)(11) (2004). Lapsed certificat ion does not translate into a presumption that
the care the attendant provided was substandard.
                                                                                              Page 13 0[20




BANNERMAN & JOHNSON, P.A.




Ms. Patricia Wheeler
October I, 2010
Page 13

       Second, as to sample item numbers 88 and 97, Heritage received the relevant Power of
Attorney document before the 2004 peo regulations Effective Date, i.e. Heritage received the
Power of Attorney documents on January 12, 2004, and September 9, 2003, respectively. As to
sample item numbers 34, 39 and 90, Heritage also received or likely received the Power of Attorney
document before the 2004 peo regulations Effective Date based on the various dates of each
document and the Date of Hire for the particular attendant. These are:

                    s.~lf:c,~cm~lj·l~                cf.ote of'flir: ·'1 I~   ~llit~on ~.a~
                                                                              ,,\;      .
                            34                          5121102                1012311999

                            39                          9129100                 111812001

                             90                         5121102                1012311999


Heritage's receipt of the relevant Power of Attorney documents for sample item numbers 34, 39, 88,
90 and 97 before the 2004 peo regulation ' s Effective Date is significant because the Original peo
regulations did not contain any requirement for peo agencies to obtain approval as to attendants
simultaneously serving as the client's legal guardian or attorney-in-fact. J6 Therefore, when
Heritage received the Power of Attorney documents for sample item numbers 34, 39, 88, 90 and 97,
Heritage was wlder no obligation to obtain approval for the attendant-client pairings. And, when
the new approval requirement was placed in the 2004 peo regulations, the new ap~roval
requirement did not suggest or otherwise indicate that the new requirement was retroactive. 7 As
discussed above, because the new approval requirement is substantive, not merely procedural, and
there is no clear intent in the Regulations suggesting that the approval requirement be applied
retroactively, the approval requirement is prospective only under New Mexico law."

        Third, as to sample item numbers 19 and 39, Heritage was not aware of the attendant's
status as the client's legal guardian/attorney-in-fact on the Date of Service. As explained below,
under these circumstances, pursuant to New Mex ico law, Heritage is not responsible for these
individuals' failure to report their status. For sample item number 19, Heritage was not provided
with or made aware of the attendant's Power of Attorney document until after the Date of Service.
The relevant dates are:



"See NMAC 8.4.738 (2000).
37   See generally NMAC 8.315.4.1 1(A)(21) (2004).
38   Howeil, supra, 118 N.M. 500; Wilson, supra, 42 N.M. 438.
                                                                                               Page 140[20




BANNERMAN   & JOHNSON, P .A.



Ms. Patricia Wheeler
October 1, 2010
Page 14

              I: sanfiiJe tt~~6;
                                .' iD'_    Date ofiServicc      Date P(i)1\,   R'3"ccivell
                     "                     ;&,     I .. z..~
                                                  ..                       .       ~!L;
                         19                      8/5/07                8/31/07


A client's andlor attendant's failure to notify Heritage of a Power of Attorney prior to the Date of
Service cannot form the basis for a deficiency under the PCO regulations as to Heritage. As held by
the Ninth Judicial District Court of New Mexico, an employer cannot be held liable for regulatory
infractions by its employees absent some showing that the employees' infraction rose to the level of
a fe lony criminal wrongdoing. 39 With this standard in mind, Heritage cannot be held liab le for its
failure to obtain prior approval from MAD for sample item number 19 when it had no kn owledge
prior to the Date of Service that the attendant was also serving as the client's Attorney-in-Fact.

        As to sample item number 39, it was Heritage's belief that the Power of Attorney applicable
to the attendant had been revoked before the Date of Service because Heritage had recei ved Power
of Attorney documents appointing other persons as the client's attorney-in-fact before the Date of
Service. The relevant dates are:

       ~ Sample
              No.

               39              11 1l2/06


While legal research has revealed that the subsequent Power of the Attorney documents did not
function io revoke the Power of Attorney document naming the attendant,Heritage believed in good
faith that it received the 2004 and then 2005 Power of Attorney documents, in part, to demonstrate
the revocation of the 2001 Power of Attorney naming the attendant.

        When considering this category of alleged defi ciencies, it is particularly important to note
thc rationale behind this particular regulation. We understand that the 2004 PCO regulations'
requirement fo r pre-approval of attendants serving as Legal Guardians or Attorneys-in-Fact was
intended to avoid a circumstance in which an attendant would fraudulently certify his or her own
timecard by virtue of simultaneously serving as the client' s Legal Guardian or Attorney-in-Fact. In
none of the sample item numbers at issue here did this occur. The timecards for each of the sample
item nwnbers identified above demonstrate that the client or a different Legal Guardian or
Attorney-in-Fact certified the attendant's timecard, and the attendant was never the one certifying.


39 Town & Country Food Stores. Inc. Licensee v. New Mexico Regulation & Licensing Dept., D-0905-CY ­
00200900670, etc., at p. J (9'" Jud. Di st. Crt. May IJ , 2010).
                                                                                                    Page 150[20




BANNERMAN & JOHNSON, P.A.



Ms. Patricia Wheeler
October I, 2010
Page 15

We believe this is important because it demonstrates that Heritage was not only in compliance with
the express requirements of the peo regulations, but also with the policy behind them.

         While disputing the findings in the Draft Report and the implications suggested therein,
Heritage remains committed to complying with the peo regulations and thus voluntarily initiated a
corrective action plan in March 2010, and then amended it in April 2010, as to, among other things,
legal guardian and attorneys-in-fact attendant-client pairs. Under this Plan, Heritage charged its
care coordination managers and executive director to ensure that MAD approval was obtained for
all attendant-client pairs stil l with Heritage, or that a revocation of the Power of Attorney naming
the attendant was executed. As to the attendant-client pairs identified in the Draft Report, the
resu lts of this Plan were as follows:




         34            10123199           NA                      Revoked - 6/30109

          39           1112/01          10/6/07                           NA

          62           4121 /09           NA           Revoked - Dated 3/1111 0; Received 6/211 0

          88           1/12/04            NA                      Approved -711 0109

          90           10/23/99           NA                 Revoked - Received 6130109

          93           4/21 /09           NA          Revoked - Dated 3/11 110; Received 61211 0

          97            9/9/03            NA                      Approved - 6/26/09



With this, Heritage ensured 100 percent compliance with the spirit and text of the 2004 peo
regulations. To ensure continued compliance with the peo regulations, Heritage has also added a
question to its. telephone pre-screening form for prospective attendants that asks whether they are
the attorney-in-fact for the respective Heritage client.

               f. Train ing

      The Draft Report identified 37 sample item numbers with allegedly "Missing Evidence of
Annual Training." The then-applicable 2004 peo regulations required that attendants receive 12
                                                                                                                      Page 160[20




BANNERMAN     & JOHNSON, P.A.



Ms. Patricia Wheeler
October 1, 2010
Page 16

hours of training per year. Since the audit was completed, Heritage has located documentation of
annual training for the Anniversary Period at issue for samplc item numbers II , 22, 53, 68, 73, 89,
90, and 97. The supporting documentation for these sample item numbers is included in tl,e
sarnple-by-sample binders. While some of thi s documentation is straightforward, others require
comment, i.e. sample ifem numbers II , 73 and 89. As to numbers 11 and 89, while some of the
training occurred prior to the Anniversary Periods, those trainings also occurred prior to the
attendants' Dates of Hire. Therefore, these trainings are properl y attributable to the Anniversary
Periods at issue.

               Sample;
            ~. lt.m,No.

                   II

                  89           7/ 11/07        7111/07 to 7110108                      7/6/07


As to number 73, note that while only one of the general competency tests is dated December 17,
2007, all of those tests uniquely are graded in green and are therefore believed to be completed and
graded at tbe Same time, i.e. within the Anniversary Period. Similarly, none of the EPSDT modules
completed by the attendant at issue with sample item number 73 are dated. But, the date stamped
on module 21, like the date on the general competencies for this attendant, is for December 12,
2007, and bccause all modules were wri tten in black ink and graded in green ink, Heritage believes
they were all completed on December 12,2007, i.e. within the Anniversary Period.

       Accordingly, the number of alleged discrepancies as to training is reduced to 29. Of this
nwnber, 15 should not be treated as deficiencies because the requisite 12 or more annual training
hours are attributable to the Anniversary Period at issue, evcn if they did not occur within the
technical bounds of that period. That is, as to some of the below trainings, the attendant completed
12 hours or more of annual training attributable to a given Anniversary Period, but which actually
occurred, due to logistical reasons discussed below, within two months of the Anniversary Period. 41




40This was the attendant's fe-h ire date. The attendant had previously been terminated on February 26, 2006. Payroll
documentation of thi s termination and re-hiring are included in the samplc-by-sample binders.
41 Heritage contemporaneously completes an " l n~Serv i ce Tracking Log" for each attendant to record the dates and
hours of training be or she receives ill a given anni versary period. Heritage's recording of trainings on th is log reflects
Heritage's and the attendant's intention as to which anniversary period the hours should be credited.
                                                                                                                   Page 170[20




BANNERM AN     & JOHNSON, P.A.



Ms. Patricia Wheeler
October 1, 2010
Page 17

   - SillU.,!."                 :. r:taiQini~
                    :Ai\niyer~.·i¥                                fi r   ~m                    c' "   .       1
  i lte~~~
               iii ~littcll t.: .• c ":l.".~
                               ~
                      PJied        Jl\ou.;s'
  1
        15
           .
                      9/4/06 to         12 (18)
                                                    ~: is               c•            c ;lIE\!: at
                                                                                                          •
                                                     8 hours occurred 25 days after Anniversary Period. 2 (8)
                                                                                                                  ~




                       9/3/07                        hours occurred 37 days after Anniversary Peri od.

        19           9121 /06 to        10(16)       8 hours occurred 7 days before Anniversary Period. 6
                      9/20107                        hours occurred 65 days after Anniversary Period.

        30            5/25/06 to        13 (19)      8 hours occurred 35 days before Anniversary Period.
                       5124107

        38            2/27/07 to         7 (13)      3 hours occurred 7 days before Anniversary Period.
                       2/26/08

        39            9/29106 to         12 ( 18)    2 (8) hours occurred 50 days before Anniversary Period.
                       9/28/07

        40           12114/06 to         13 (19)     12 (18) hours occurred 34 days after Ann iversary Period.
                      12/13107

        51            5/7/06 to          17 (23)     10 (16) hours occurred 2 to 4 days before Anniversary
                       5/6/07                        Period.

        55            6/ 18/08 to        13 (21)     3 (9) hours occurred 12 to 14 days before Anniversary
                       611 7109                      Period.

        56            4/ 12/07 to        12 ( 18)    3 (9) hours occurred 18 days before Anniversary Period.
                       4111 108

        58           11129106 to         13 (19)     10 hours occurred 2 days after Anniversary Period.
                      11128/07

        59            2/ 15/07 to         3 (9)      2 (8) 'hours occurred 18 days before Anniversary Period.



42 The numbers in this column in parentheses indicate the total train ing hours once the general competencies training, if
any for the particular attendant, is properly credited as eight hours. As discussed in greater length in the affidavit of
Jenni McNab, sent via overnight mail by cover dated yesterday, the general competencies training provided to
Heritage 's attendants should always have been credited as eight hours, not two, because of the average amount of time
taken by attendants to complete this training and the diversity of topics covered, including quality improvement,
universal precautions, customer service, personal safety, fire safety, body mechanics and the homemaker competency
examination.
                                                                                                                 Page 180[20




BANNERMAN & JOHNSON ,     P.A.



Ms. Patricia Wheeler
October 1,2010
Page 18

                      2114/0S

       63            5/29/06 to         IS (24)     10 (16) hours occurred 15 to 16 days before Anniversary
                      5/2S/07                       Period.

       72            11/5/06 to         18(24)      8 (14) hours occurred 34 days before Anniversary Period.
                      11 /4/07                      9 hours occurred 9 days after Anniversary Period.

       74            S/25/07 to         12 (IS)     12 (18) hours occurred 5 days before Anniversary Period.
                      S/24/0S

       91           12/1 1/06 to        12 (IS)     11 (17) hours occurred 2 to 8 days before Anniversary
                     12/10/07                       Period.


As the 010 is aware, Heritage tracked its attendants' ahnual training by reference to an attendant's
Anniversary Period. In doing so, Heritage ensured that its attendants had 12 hours of training
within every 12-month period. The PCO regulations do not require PCO Agencies to track or
require training hours by anniversary period, rather than by calendar year. Heritage's method of
tracking training ensured that an attendant could not go for long spans of time without the necessary
training. This should be contrasted to tracking training by calendar year, which allows an attendant
to go 23 months between training sessions.

       Second, as to II of the 29 remaining sample item numbers, the attendants also were in
substantial compliance with the 12-hour training requirement in that the attendants had between
nine and 12 hours of training for the applicable Anniversary Period.




                        IS                10/22/06 to 10/2 1/07                     9 (I 5)

                        19                 9/21 /06 to 9/20/07                      10 ( 16)

                        23                   S/3/06 to S/2/07                        3 (9)




43 The numbers in this column in parentheses indjcate the total training hours once the general competencies lraining, if
any for the particular attendant, is properly credited as eight hours.
                                                                                                   Page 190[20




BANNERMAN   & JOHNSON, P.A.



Ms. Patricia Wheeler
October 1, 2010
Page 19

                     38              2/27/07 to 2/26/08                  7 (13)

                     39              9/29/06 to 9/2 8/07                 11 (17)

                     59              2/ 15/07 to 2114108                  3 (9)

                     60              9/12/07 to 9111 10 8                4 (10)

                     64              3/26/07 to 3/25/08                  11 (17)

                     65              211910 8 to 2/ 18109                4 (10)

                     98              5125106 to 5/24/07                   3 (9)


Because of this substantial compliance, the above 11 sample item numbers also should not be
treated as deficiencies under the PCO regulations.

        This is particularly so in light of the logistical issues faced by Heritage, and likely all other
PCO agencies, as to training in the home care context. First, Heritage encounters difficulty
obtaining training within the confmes of the technical Anniversary Period because of the
commonality of attendant-family members. That is, attendants under the PCO Program are
frequently family members of the client. These attendants get paid for their services provided
pursuant to the applicable Personal Care Services Plan ("PCSP"), but the attendants provide many
additional services to their family members as a function of being related to the client. It is not
snrprising, then, that a daughter with a PCO-eligible mother at home might find it difficult to attend
12 honrs of training annually. Indeed, it is not uncommon for Heritage's attendants to bring their
family member-client to the training in order to provide that fami ly member-client with needed care
while still meeting the training requirements. Heritage recognizes this difficulty and, when
necessary, accepts training from soine attendants that does not technically fall within an anniversary
period, but is close in temporal-proximity to justifiably be attributed to it. A .second difficulty
encountered by Heritage regarding training is simply that of language barriers. Heritage endeavors
to meet the needs of its diverse client pool by providing the services of attendants who can converse
with their clients in the clients' preferred language. This means that Heritage is often faced with
translating entire training modules and tests for specific attendants in languages from Spanish to
Vietnamese.

        Despite these logistical difficulties, Heritage voluntarily has undertaken several initiatives in
its efforts to ensure future 100 percent compliance wi th the training requirements in the PCO
regulations. Among these, Heritage has issued a policy requiring its scheduling and payroll
                                                                                               Page 20 0[20




BANNERMAN    &   JOHNSON, P.A .




Ms. Patricia Wheeler
October I, 20 I 0
Page 20

personnel supervisor and its executive director to begin auditing annual training for completion and
compliance quarterly.

       In.        Conclusion

        For the reasons set forth above, Heritage disputes the findings and recommendations
contained in the Draft Report. Moreover, for the same reasons that Heritage would not and should
not be subject to recoupment of Medicaid monies under New Mexico and federal law, neither
should HSD be required to make the repayment recommended in the Draft Report. lfyo u have any
further questions or would like any further documentation regarding the Draft Report, please do not
hesitate to contact me.

                                             Sincerely,

                                         .. ~&JOHNSON'P.A.


                                             David H.   JOhnSO~
                                             - and-



                                             ARENT FOX LLP



                                             Linda A. Baumann



cc:     Len Trainor
                                                                                                          Page lof17


APPENDIX E: NEW MEXICO HUMAN SERVICES DEPARTMENT COMMENTS




                New Mexico Human Services DI 

                                                                               Medical AliSistance Division
                                                                                             PO Box 2348
    Susana Martinez, Governor
                                                                                Santa Fe, NM 87504-2348
    Sidonie Squier, Stcretary
                                                               Phone : (505) 821-3103; F'~; (50S) 827-3185

         February 13, 2012


        Ms. Patricia Wheeler 

        Regional Inspector General for Audit Services 

        Department of Health and Human Services 

        Office of the Inspector Genernl 

        Office of Audit Services, Region VI 

        1100 Commerce Street, Room 632 

        Dallas, TX, 75242 


        Re: 	    New Me:dco Response - Medicaid PersODal Care Services Provided by Heritage
                 Home Heliithcare, A-06·09-00063

        Dear Ms. Wheeler:

        Enclosed are the New Mexico Human Services Department Medical Assistance Division's
        comments on the Department of Health and Human Services Office of Inspector General's dmft
        audit report A-06-09-00063 titkd "Review of New Mexico Medicaid Personal Care Services
        Provi~d by Heritage Home Hea1thcarc."


        Thank you for the opportunity to commenl. If you should have. any questions, please contact
        Cathy Sisner()5, Chief of thc CoLTS Bureau at (505) 827-3 178 or by e-mail at
        Cathy.sisneroS@State.nm.us.

        Sincerely,




    ~DiYMedical Assistance Division 

        New Mexico Humsn Services Department 

        Enclosure 


        Cc: 	    Sidonie Squier, HSD S~retary   

                 Brent Eamest, HSD Deputy Secretary 

                 Paula McGee, HSDIMAD Healthcarc Operations Manager 

                                                                                                                                                                          Page 2 of 17




                                                                   New Mexico Human Services Department (HSD)
                                                                                              Medical Assistance Division (MAD)



                New Mexico Human Services De part ment Medical Assistan ce Division
                Commlnts on t he Oepiilrtment of Hllillt h .and Human Services Office of Inspector
                General Draft Audit Report A-06-09·00063 on Medicaid Personal Care Services,
                Herlta,e Home Healthcare


Table of Con tents
A. 	 Introduction ............ ......................... .......................................................................................... ......... 1 

B. 	 Summary of R'sponse....                                                                                                      ................................. 1 


            ~ckground ..........................................   ................................................................................ ................2 

D. 	 Alleged Heritage Def.c iencies...., .............................................................                                       .....................3 


       1. 	 Missinl! Annual Training Ooc\Imel'ltation" ..................                                                                  .......................3 

       2. 	 Missing CPR or First Aid Certification .... .................... .                                                          .......................... .4 

       3. 	 Missing Tuberculosis Testing Documentation ........................................................                                             ......4 

       4.      Missing Prior Approval of Legal Guardian or Attorney-in-Fact Services .......                                                                .......s 

       ,.      Unsupported Attendant SIIrvke Units .... .................. .......................................... ...........................6 

       6. 	 Otller PCO tv!atters........................................................................................................................... 6 

E. 	 State Policy Changes and Complilln<e Measures................................................,.................................6 

F. 	        Response to Proposed Overpayment Recovery...................................................................................7 

G. Conclusion ................. ..................... ................................................ ................................. ..................8 

AppendiK: State Policy Changes and Compli,lOce Measures.....                                                        ............................................ A1 

                                                                                                              Page 3 of 17




 A. Introduction
 In Oecember 2011, the Department of Health and Human services (UOHHSN) Office of Inspector General
 (~OIGM)issuad a draft report entitled -Review of New MexiCO Medkaid Pen;onal Care Services Provided
 by Heritage Home HealthcareM (<<Oraft Aodit") covering claims from October 1, 2006, to September 30,
 2008. The Medical Assistance Division (MMAO") of the New Mexico Human Services Department ("'HSD")
 has reviewed the Draft Audit, and collected informatlon from the COOrdination of Long Term services
program ("CoLTS- ) regarding the claims Heritage Home Healthcare (nHerilage") submitted. MAO also
requested, received, and reviewed documentation from Heritage offered In support of Its response to
the Draft Audit.

 8. Summary of Response
MAO strongly disagrees that these findings support the recommend"tion of the Draft Audit th"t the
SUite return $4,483,492 in Federal funds rec::eived in response to the Heril"ge claims and p"id to the
provider. The Draft Audit identifies fIVe categories of "deficiencies" with respect to 100 reviewed claims,
selected on a random basis. It concluded that the claims (or portions of cI"'m!) affected by these
"deficiencies" amounted to $2,243.1 It then e>ctrapolated this conclusion to tile universe of Heritage's
claims for the two·year review period, 10 arrive at the amount of S4,483,492 In alleged HoverpaymentsH
of Federal funds for the full universe 01363,903 Heritage claims .d uring the audit period.

We respectfully dlsa8ree with this conclusion. FQur ofthe five categories of «defidencies: and 35 of the
36 alleged Hdeficiencies: involved no demonstrated overpayment of any kind.            Ralhar, the findings
were only that particular documents were missinl from the reviewed file. But the overall eviden~
produced by the rev iew dearly demonstrates that the underlylnll personal Cilre services were valid,
allowable, and rendered to eligible benefidaries, notwithstandinll the absence of certain documents.
Moreover, for the most part, the missing documentation related not     to federal rtquirements but to
state requirements. The appliuble $late law don not require recovery of payments made to providers
even If there was a violation of those state requirements. l When tha State determines that violations of
these requirements have occurred, the Quality Assistance Bureau rQAB") has a policy and practice of
issuin8 corrective action plans to prevent further violations.'

For the remaining catellory, while MAD acknowledges that the findin8s support a conclusion that there
was a single overpayment of $12.28, they do not support extrapolating that conclusion to the universe


1 The Draft Audit llxamlned only Herltall~'S claims for personal care services. Throughout thi, response,
when this response refers to th e amount of a claim, il refers only to the amount included on the
personal care Sflrvices line of nch claim, and eXCludes any amounts c!~imed for other M~dicaid .services.

I The 5t~tt documentation regulations In effect durinll the audit period required racoupment only if I-ISD
audits ~show Inappropriate brUinl/or services,H N.M. AdmIn. Code § 8.315.4.1lA(14) (2004) (emphasis
added). The current St~te regulations similarly focus upon whether the undltriying sltrviClts wife in fact
rendered by rlequirini Hrecoupment of funds ••• when audits show Inappropriate billing or Iniilpproprillte
documentallonfor J'rvlclt$.~ Id. § 8.315.4.12B(S) (20ll).
J Nothlni in th is statement is intended   to address situations covered by Medicaid fraud and abuse
provisions.

                                                                                                Page 10f8
                                                                                                                  Page 4 of 17




of all claims submitted during t he two-year (eview period. Rather than revealing a pattern of
mlsclaimlng or any systIJmlc failure on the part of Heritage, the Draft Report Identified only one instance
in which unsupported units were billed. The OIG's findings concerning unsupported attel'ldilnt service
units are too isolated, and the sole instance In which unsupported units were found dearly is an
aberration from the provider's normal practices.

Overall, the findings of the Oraft Audit reveal iI provider that has been highly compliant with applicable
requirements. At most, the few ~deficie ncies,~ In slgnificiln! part reflecting 110 more that the inability to
document every Instance of compliance, warrant the State insistins upon a corrective action plan from
the provider to assure its compliance with state requirements, its maIntenance of complete records, and
its careful review of claims to avoid subm itting claims for services not eligible for reimbursement. As
explained in Heritage's re5ponse letter, It has already voluntarily undertaken considerable corrective
actions   rel~tjni   to the categories of "deficiencIes· to ensure future compliance with the underlying State
and federa l requIrements.

In addit ion, MAD challenges the OIG's find ings concerning the specific claims selected for review
because Heritage has been able to provide documentation demonstrating that it complied with the
app licable laws. For the reasons detailed below, it would be unreasonable for the Federal government
to requ ire recoupment of nearly 20 percent of the Federal funds that Heritage received during the audit
period for administering PCO services ($16,058,247), especia lly when the DIG reviewed only 100 cases
or less than 0.03% of the total 363,903 claims.

C. Background
MAD Is the single state agency responsible for administering New Me.leo's participation in the Medicaid
program. In 1999, the Sta te began providing PCO services to certain Medlcaid-ellgltlle IndMduals with a
disability or functional limitation who require auistance to enatlle them to live at home, rather than
being institutionalized. PCO services are made available under New Mexico's State Medicaid Plan
approved by the Centers for Medlcafl'! and Medicaid Services (" CMS").

Pursuant to 42 C.F.R. § 440.167, New Mexico has developed PCO eligibility ind service crite ria.
Individuals aged 21 or older who are ellgible to r full Med icaid coverage may receive PCO services when
they require aSSistance with at least 2 Activities of Dally Living t"AOls"), as determilled by a contracted
Third Party Assessor ("TPA"j. PCO beneficiaries work with a Medicaid·approved provider to select a
caregiver or attendant. C,lI(egivers and attendants may tie friends or family memi:lers, so long as t hey
have no financial resporl$ltI!lity tor the bene ficiaries (e.g. spouses).       State law provides that Ihe
consumer's legal representative musl receive approval from MAO to be t he paid caregiver. Service
delivery models include Consumer Self·Directed or Consumer Delegated models.

Although for most of thl! time period covered by Ihe Oraft Audit New Mexico's Medicaid Fiscal A(lent for
claims payment proceuing processed all pea providltr bills under a fee-for·service       mo~e l,   on Augusl 1,
2008, the State implemented t he CoLTS Managed Care System t hat covers all primary, ilcute, ilnd long·
te rm Medica!d and Medicare services, Including PCO services. The ColTS program operates under CM5­
autho rized, concurrent 1915(tI) end (c) Medicaid waivers. Two managed care organ izations          (~MCOs")­
AMERIGROUP Community Care Inc. and EVERCARE of New· Mexlco Inc.-have contracts to provide


                                                                                                    Page Zot8
                                                                                                                Page 5 of 17




    ColTS services. The State phased-in CoLTS in cert~in geographic areas over the first year of
    implementatio n, and phased In all counties by Aprill, 2009.

    D. Alleged Heritage Deficiencies
    The DIG's Draft Audit concluded that MAO did not alwavs ensure thai Heritage's claims for Medicaid
    pea services complied with applicable Federal and State requirements. The auditors determined that of
    the "100 sample clJlms from October 1, 2006, through september 30, 2008. that were examined, 64
    (totaling $3,837) were in full compliance, and 36 (totaling $2,243) wllre not. The auditors further
    determined Ihal1 of tile 24 non-compliant claims was partia!iy allowable. The Draft Audit Identified 41
    alleged deficiencies oontilined in those 36 claims which fall into the following S categories:

        • 	 Missing documentation of annual tBining (28 claims)
        • 	 Missing attendants' cardiopulmonary resuscitation (~CPR~) and/or first aid certification (6
            clilims)
        • 	 Missing evidenc e of tuberculosis training (1 claim)
        • 	 Missing prior approval for perronal care services provided by a legal guardiiln or attomey-in­
            fact (5 claims)
        • 	 Unsupported attendant service units (1 claim)

As Is shown In the following paragraphs, while one of the alleged categories of deficiencies Indicates
that a single claim wu paid that should not have been paid, all the remalnins categories Involved
technical or documentation problems that do not support a conclusion that payments were improperly
made."

we respond to each of th e six categories of -deficiencies- billow.

1. Missing Annual Training Documentation
Or3ft Aud it Flndln,! The DIG auditors found that for 28 of the 100 ~mpled claims Heritage Laded
documentation showln, that attendants had compl eted 12 hours of training In the calendar year In
which they furnlstled services to MedIcaid recipients, as requi red by section 8.31S. 4.11A(33) of the New
Mexico Administrative Code (- NMAC"). The ctaims in question total $1,642.96. The Oraft Audit would
reject these claims in their entirety.

MAD Respons.: Federal law does not require attendants to undergo a specified amou nt of training in
the year in which they furnished service, and therefore there Is no juSllftcation for withholding federal
funds based on a tim;!ing that such tralrlirlg was riot prOvided. Even assuming that the State requirement
had been violated, State law does not require withholding payment f rom providers where the
requireme nt is not met.


•     The Draft Audit also Identified one type of deficiency In Heritage's claims that did not violate either
Federal or State law In effect at the time the claims were made:                Charging for attendants' meal
preparation and housekeeping services when attendants and recipie nts live in the $arne home (27
claims).


                                                                                                     Page30f8
                                                                                                                   Page 6 of 17




 Enforcement of        ~   State training requirement by withholding Federal fuilds, when it is otherwise
 apparent that eligible services were provided to an elq:ible recipient In amounts authorized by a servke
 plan, is unwarrilnted.

In all 28 cases, the record documents that elisible S!trvices were provided to eligible recipients in an
appropriate setting In accordance with iI ph'{Sician-ilpproved 'plan of ure. This satisfies the Federal
requirements for federal finafIClal participation (NFFP"), and the failure to meet a State training
requirement, even If proved, does oot justify withhoidillil that FFP. In fact, in 5 of the cases, the
attendant completed 12 or mon: hours of tlilinlng within 2 weeks of the anniversary period, and in is
cases, this training was completed within 2 months of the anniversary period, Indic;lting th,l It the
attendants were In fact adequitely trOlined, even if not within the technical bounds of the anniversary
period.

Heritage    h~s    already tilIken corrective action to prevent future violations of thl State requirement. It
issued a policy requiring the scheduling and payroll personnel supervisor and its executive director to
begll'l auditing annual training forcomplet iol'l and compliance each quarter.

2. Missing CPR or First Aid Certification
O,..ft Audit Flndin,: The OIG auditors determined that in 6 of the 100 sampled claims Heritage could
not provide copies of the attendant's CPR or first aid certlficalion as required by section
8.31S.4.11A(2)(d} of the NMAC. The amount of the claims in question totals $418.39. The Oraft Audit
would reject these claim in their entirety.

MAO Response: There Is no Federal requirement that an attel'ldant be certified for CPR or first ild, and
therefore   11(1   justification for withholding Federal funds based on a finding that such approval was not
provided. Even if the State requirement had been violated, Stale law does not require withholding
payment from providers for the services furnished by the attendant.

In 5 of the 6 cases at issue, Ihe attendant had both CPR arid first aid certification, but this certiilcation
lapsed for a period of months ind was renewed soon after. These attendants were trained in CPR and
first aid and competent to provide such aid if needed. In the last COIse (sample 58), the attendant
SUbsequently obtained the certification. This case is an Isolated instance In which the attendant lacked
CPR and first aid training when PCO services were furnished that by no means Indica tes that Heritage
systematically failed to comply with tile CPR and first aid Stillte requi rement .

Heritage has illready taken corrQctive measures to prevent services from being proVided by attendants
who lack CPR or tim aid certification or whose certifications have lapsed. seglnning In April 2010,
Heritage institu ted a policy of not schedulin, for work attendants who cannot provid e proof of current
CPR and First Aid certlliCiltlons, and is reviewI!"@: the currency of scheduled attendants' certlficlltlons on
a weekly basis.

3. Missing Tuberculosis Testing Documentation
Draft A\ldit Finding: The OIG auditors found thilt for 1 of the 100 sampled claims Heritage lacked
documQntation showing that the attendant had received a tuberculosis           ("T8~l   skin test or chest x-ray

                                                                                                    Page40fS
                                                                                                                Page 7 of 17




 and tested negative for TB, or been approprlately treated before he or she furnished services to
 Medicaid recipients, as required by section 8.31S.4.11A(37) of the New Mexico Administrative COde
 I~ N MAC"l .   The amount oflhl! claim in question is $73.68. The Draft Audit would reject this claim in its
entirety.

MAO Response: federal law does oot require attendants to maintain documentation of18 tests, x-rays,
a nd trealment administe red to attendants before they furnish services, ilnd there fore there is no
Justification for withholding federal funds based on a findilll that such training was not provided. Even
assuming that the State requirement tlad been violated, State law does not require withholding
payment from providers where the requirement is not met. and the OAB issues corrective actiOn plans
for such viOlations r~ther than recouping paymenti for any services rendered by the attendants for
whom TB documentation Is missing.           Enforcement of a State training requirement by withholding
Federa l funds, wilen it 1$ otherwise apparent th~t eligible sefllices were provided to an eligible redpient
in amounts authorized by a service plan, Is unwlrranted.

The fact that there is only ~ single Cise among the 100 ,ampled Cises In wh ich T8 testing documentatiOn
is alleged to be missing demonstrares that Heritage uniformly requires that such testing be completed
and documented. Heritage has provided TB questionnaires for the attendants In question and explained
that such questionnaires are administered to attendants only if they h~ve already tested negative for T8.
Thus, Heritage likely had a copy of the attendant's negative m test results, but simply misplaced it.

In addition, in the isolated case in which the T8 test results are missing. the record demonstrates that
eligible services were provided to eligible recipients In an appropriate setting in accordance with a
physician-approved plan of care. This satisfies the Federal requirements for FFP, and the failure to meet
a State tuberculosiS t esting requirement, even if prOlled, does not justify withholding that FFP.

4. Missing Prior Approval of Legal Guardian or Attorney-in-Fact Services
Draft Audit Finding! The Draft Audit determined that for 5 of the 100 sampled claims Heritage did not
provide evidence that MAD Issued prior apprOllal for personal care services prOlllded by the recipient's
legal guardian or attorney-in-fact, as reqUired by section 8.315.4.1lA (21) of the NMAC. The amount of
the allegedly deficient claims totals $353.47. The Draft Audit would reject these claims In their entirety.

MAO Response:        f ederal law does not require prior State agency approval for a legal guudian or
attorney-In-fact to provide paid persona l care services, and therefore there is no justification for
withholding Federal funds based on a finding that such approv~1 was not pro~ided.           Even If the Staie
requirement had been \/Iolated, State law does not require withholding payment from providers where
the requlremenlls not met

In the 5 cases in question, t he record documents that eligible services were provided to eliSibl e
rec;iplents In an appropriate setting. in acrordance with a physician-approved plan of care. This satisfies
the Federal requirements for FFP, and the failure to m" t a State requirement of prior apprOlllI for lelal
guardians, even if proved, does not justify withholding that FFP.




                                                                                                  PageSo'a
                                                                                                              Page 8 of 17




In addition, Hlritage has already laken corrective action to prevent tuture violiiltions. It added a
question to its telephone pre-screening form for prospect/vI! attendants that queries whether Ihe y are
attorneys-In-fact for t he beneficiaries.

S. Unsupported Attendant Service Units
Dr.lft Audit Flndln.: The OIG determined that for 1 of the sampled claIms Herllage failed to provide ­
documentation supporting the number of units dalmed for attendant services. The total illlegl dly
deficient portion of this claim Is $12.28.

MAO Response: Heritage has corn:eded that it should not have been paid for the claim in qUllstiofl and
has already returned the amount of the claim to HSD. MAD notes, however, that this overbilling Is, at
most. an isolated oaurrence at Heritage and the amount of the overpayment, which bi lled for a single
hour of Pea services, Is only a minlscllie percentage of the toul PCQ claims reviewed . The 512.28 In
excess blll1ngs 15 less than 0.2 percent of the 56,080 in pea claims contained In the 100 cases Included in
the audit review. Moreover, Heritage has already taken corrective measures by conducting an Internal
audit of claims for a single hOllr of pea services.

6. Other pea Matters
Draft Audit Find!",: The alG auditors found that for 27 of the sampled claims Heritage charged a total
of 5542 in attendants' meal preparation ilnd housekeeping services even though the attendants and
recipients lived In the same home. The OIG determined that at the time, such claims did not violate
federal or State law; however, the Sute has since amended sections 8.315.4.16 and 8.315.3.17 of the
NMAe to prohibit such claims.

MAO Response: M AO concurs that the claims for meal preparation and housekeeping services provided
by an attendant living in the recipient's home did nQt violate federal or State law In effect during the
time perlQd cove red by the Dl1IftAudit.


E. State Policy Changes and Compliance Measures
As shown above, since 2009, PCQ servi1::es have been prl.lVlded In New MexiCO entirely through the
ColTS Managed care System. Two MOOs have been responsible for the delivery of the servi1:es and for
assurlns provider compliance with applicable state and federal requirements. Yet MAO retains ultimate
responsibility (Qr this, as well as all Qther aspects of the Stite's Medicaid program, ind hiS mounted a
range of actil.lns to assure that pea services are belnS provided properly and in compliance with law ilnd
regulations. The State's continuing efforts in this area hilve included a series of regulatlon changes
adopted in 2010 and 2011, ilnd implementiltion in 2010 of a Monthly pea Billing and Adm inistrative
Workgroup to evaluate and spur Improvement In pro,ram          pertorman~.      In addition, the Statt hilS
taken a number of corrective measures that focus on tile areas addressed by the Draft Audit findings, all
of which ~ave been intended to improve provider performance.

The State's efforts at Improved perlormanct are continuln,.       It hilS begun plannlns for an evldence­
based program monitoring system Ihat will enhance the quality of pco seNices. In addition, it Is


                                                                                                Page 60f8
                                                                                                                 Page 9 of 17




eKploring the implementation of a telephonic and GPS tracking system, like thilt used In other states, to
allow for automatic generation of pea provider timesheel entries. There Is a $2 million cost a$sociated
with this enhanceme nt.

The Appendix to this Response describes In greater detail the steps that the State has taken and plans
on taking In the near future to assure improved program performilnte. The State Is confident that
these steps have contributed and will continue to contribute to the high level of performance and
compliance that has characterized its pea providers, induding Heritage.

F. Response to Proposed Overpayment Recovery
After calculating that 36 claims or portions of claims dl!ri~ from the sample resulted in overpayments
                                statistlc.al software w to extrapolate the total refund due to the Federal
of $2,243, the Draft Audit used W
GOllernment to be $4,483,492 in FFP for alleged unallowable peo service claims by Heritage from
October 1, 2006 through september 30, 2008. The State takes strong exception to this conclusion.

As shown aboW!, there is no justiflcallon for recove ry of any Federal funds, with or without
extrapolation, with regard to 35 of the l6 questioned claims, which account for the total $4,714
identified as overpayments by the Draft Aud it S For these claims, the findings of the Oraft Audit do not
support a conclusion that payments were Improperly made. Rather, they show that only a minute
number of files are missing a document that would confirm the satisfaction of a particular requirement.
The overwhelming demonstration in the 100 sample case records of compliance with the requirements
In question (including compliance in 99% cases for securing TS testing documentation, 95% compliance
for providing apprOllal for legal guardian sefllice delivery, and 94% for securing CPR and flrst aid
certlflcation) negates any conclusion of non-compliance In the few Instances in which a document was
missing from a file.

Further, to the extent the ab5ence of documentation in the case fite relatu to State requirements,
rather lnan to prOlllsions of the Federal regulatiOns (as in the cases of the CPR ilnd service training or the
i1pprollill for legal guardian service deliW!ry)It Is Inappropriate to withhold Federal funding. Nothing In
State law requires that funds necessarily be witllheld In any Instance where a case record fails to
document compliilnce with these State requirements.

As to the portions of the Oraft Audit relallng to ucessive billing, the findings reveal no pilltl!rn or
practice of non-compliance by Heritage. To the contrary, the OIG auditors identified ontv one Instance
of overbilling. Even if the Draft Audit's findings ar. correct, only $12.28 of the total of$6,08O in PCO

' The Draft AtKflt concluded thit Sof the sampled claims each had 2 types of wdeflcilncies": 1 claim had
missing evidence of annual training and unsupported units of payment, 1 hild mIssing evidence of
annual training and prIor agency approval for PCO services provided by a legal guardian or attorney-in-­
tact,2 hild missing evidence of annual training and CPR or first aId certlfic.. tion, and 1 had missing
evidence of CPR or fim aid certiflcatlon and prior agency apprOllal for PCO services prOlllded by a legal
guardian or attorney-in-fact. In the first Instance, the Draft A.udlt used the larger of the "deficiency"
amounts (ent irety of the claim for misslns prior physician authorization lonn) In Cilkulating the total
Jederal share of I he 36 wdeficient Wclaims.

                                                                                                   Pale 10f8
                                                                                                               Page 10 of 17




claims reviewed In the audit represented amounts claims In excess of the time reflected on tile
timesheetsor that was authorized by the service pliln. This would mun that Heritage's error rate Is
only 0.2 percent, far less than the tolerance levels establiShed in various quality oontro l programs in
Medicaid and other federal funded programs. See, e.g., 42 C.F.R. § 4U.865 (establishing a 3% tolerance
limit for eligibility errors in the Medicaid EIlglblliryQuality Control program; 4S C.F.R. § 20SA2 (1980)
(establishing a 4% tolerance limit for J).iyment errors in the Aid to Families with Dependent Children
program). In these programs, It Is standard federal policy, when overall performance is with in the
established tolerancil limits, to seek racove rles only ~r specific overpayments actua lly id entified, and
not to extrapolate the results of a review to the caseload as a whole. That policy should be applied In
this case, where the level of erroneous payments is as low as it is.

It should also be mentioned that extrapolation of the results to the case load as a whole to recover a
substa ntial amo unt from the State Is Inappropria te given the continuing efforts of the State (detailed in
the Appendix) to assure high quality and compliant performance by pca providers, even after the
conversion to a managed care delivery system.


G. Conclusion
The rewlts of t he alG Invesliea t ion, reflected in tile Draft Audit, are encouragi ng to MAD, for t hey
demonstrate a high level of compliance by Heritage. While there is always room for improvement and
the State intends to continue its long standing efforts to enhance performance of its pea provideu, the
results of t ile federal review should provide comfort to federal offkials t ha t Federal fu'rlds are being
properly spent In the case of Heritage's pea services. The State would be pre pared to repay $8.83,1 the
federa l share associated wit h the sole instance of overbUllng.




6 This amount WiI! calculated by applying the fMAP rate for Federal FIscal Year 2007 of 71.93 percent to
the sample case overpaym ent ot$12.28.
                                                                                                                 Page 11 of17




           Appendix: State Polley Changes and Compliance Measures
1. 	 Overall pea Improvements

(a) Regulation Changes
In the last year and a half, the state has revised and improved the pea regulations three Urnes to
enhance the State's ability to ensure that the    ~Ialm$   submitted by PeO providers comply with Federal
in<! State regula tions.

September 15, 2010 pea Regulation Ch anges:
    • 	 Added I_Ulguage 10 the CoLTS managed care regulations clarifying the respective roles and
        responsibilities of MCOs and TPAs;
    • 	 Added language requiring MCOs to identify Natura l Supports; and
    • 	 Added languagli! requiring MCOS to assess servites provided to PeO consumers who share a
        home.
December 30, l010 Pea R"ulatiOll a..lOges:
   • 	 Added language throughout the pea regulations clarifying that an inpatient or resident of a
       hospita l, nursing facility, Intermediate ellre Fa~lI(ty for the Mentally Retilrded (·IU-MR"),
       mental health fa.clilty, correctional facility or other institutional setting (except for recipients of
       community transition goods and services) is not eligible for pca services;
   • 	 Added language clarifvjng that duplicative pca services are not allowed for individuals rectilling
       the same or similar services by other sources, Including natural supports;
   • 	 Added cognitive assistance as a service within each ADt and IADt service rather than a stand­
       alone service;
   • 	 Required a lesal represen tative for self-directed individuals who cannot make their own choices
       or communicate their responses;
   • 	 Restructured consumer delegated and directed regulations to avoid repetition and to dtscribe
       adequately the roles and responslbilitles of PCO agencies, caregivers, and beneficiaries;
  • 	 Replaced thlt MAD 075 Medical Assessme nt Form with the Income Support Division ("ISO") 379
       Medical Assessment Fonn, which can be completed using form flelds for entry;
   • 	 Clarified which PCO services are or are not covered by Medicaid;
   • 	 Reduced the hours in which temporary authorizlItion is given, and made this requirement
       appJlcable to all new PCO rec;ipients; and
  • 	 included in the regulation MAO 055, the PCO Service Guide, whith helps standardize and ensure
       the accurilcy of the calculation of time in whiCh PCO servites are furnished. For each PCO
       recipient function level, the Guide provides a narrative or worluheet establishing standard
       service tim e ranses.
Septlmber 1S, 2011 pea Rl eulatlon ChanSls:
   • 	 Revised the MAD 055 ("PCa Service Guide" ) to combine th. pre-existing 10 pca services into 6
       service utqorles, and to dett rmlne appropriate service time ranges for each service:
           1. 	 Hygiene and Grooming-Bathing, dreSSing, grooming and dOClor prescribed skin cilre;
           2. 	 Bowel ~nd Blildder;
           3. 	 Preparing Meals;
           4. 	 (atin"



                                                                                                Paaf!Al of A7
                                                                                                                    Page 12 of 17




             5. 	 Household and Support service-Cleaning, laundry, shopping and millor up-keep for
                  medica l equipment; and
             6. 	 Supportive Mobility AssistilrlCe-Sptlcl.1l help t ransferring f rom 011& place to another,
                  walking. ilnd changing posi tions, provided thilt such assistance is not part of another
                  PeO service.
         Each service includes time spent on MMobility Assistance- and spoken reminders (called
         ·Promptinll and Cueing");
    •	   Prohibited prior authorizations (HPA M ) that are retroactive or extend beyond the level of ca fe
         nOCO) authorization period;
    •	   Permitted an Mea to lulhome time ou tside of Ihe tim e set forth in the MAD 055 for furnishing
         services to a beneficiary based on his or her verified medical and clinical need(s);
    •	   Required MCOs to discuss with t he consumer the results of the servite assessment, function
         level for each pea task on the MAO 055, and the app licable service time range during the In­
         home servlte assessment;
    •	   Required MCOs to make a good faith effort to conduct a pre-hearing confarenCli for
         beneficiaries who request a State fair hearing. During the pre- hearing conference, the MCO
         must expla in how it applied the Pea regulations, and exa mine whether additional service time is
         necessary based on a consumer's verified medical and cITnlcal nelld!s);
    •	   Clarifilld that under section 8.3 52.2 of the NMAC, a pca recipient who dlsagreas with the
         authorized number of hours m(lY utilila the CoLTS Mca grievance and appeal process and the
         State's fair hearing process consecut ively or concurrently; (lnd
    •	   Cla rified that the beneficiary, not the provider, is responsible for repaying t he C05t of tontin uilll
         benefits pending a fair hearing decision.

(b) PCO Billing and Administrative Workgrou p
In 2010, in addition to amending the PCO reSulations, MAD Implemented a new Monthly pca Billin, and
Administrat ive Workgroup to evaluate pca provider and CoLTS Mea bliling and administrative issues,
and to improve the program's performance. The Workgroup wu made up of several PCO providers,.·
MCO staff, and representatives from several State Bureaus {CoLTS, Long Term "re Services and Support
("LTSSS"I, Quality Assurance, Contract Administration arid Program Information).
Thll Workgroup Identifie s systemic problems in t he Pea program, root causes for such problems, and
possible solutions. In particular, the Workgroup has bee n tasked with Improving the following areu of
the Pea program:

   •	    fUSibility;
   •	    Mea Assessmentsl Authorizations/Hours;
   •	    TPA/Level of Ca re;
   •	    Service Coordination;
   •	    Transfers from one agency to another;
   •	    Provider Educition:
   •	    Billing; and
   •	    Fraud and Pr"Qgram In tegrity.

The Workg roup ha s d.veloped a PeO survey and used the findings from the survey to further refine
areas of n..d. d improvement. Many of the regulation changes identified above originated from this


                                                                                                  PageAl of A1
                                                                                                                  Page 13 of 17




Workgroup to corre<.t error-prone areas. The committee members have also developed work and
process flows to help clarify       pea   roles and responsibilities, and identify opportunities for program
improvement.

The Worlcgroup is chaired by the CoLTS Bureau Chief, in collaboration with pea providers and MCOs .
The pec Service manager updates the Workgroup's work plan to ensure that it is accountable for, and
suu:essfu llVaddresses the areas ofihe pca progl'ilm listed above.

(c) Continuous Quality Improvement rCQ[") Model for peo
MAD recogn izes that an evid en<:e-based app roilch to progrilm mOnitoring is one of tile best ways to
ensure that PCC services are admini!itered in the manner specified in the Federal and State regula t ions,
and safesuard part icipants' health and wellar&!.         MAO will design and adopt an evidence-based
approach t o PCO quality modeled after CMS's CQI model for Home and Community Bar;ed Services
(MHCBS") waivers. Planning for this Initiative wi ll begin in October 2011, and a reporting mechani sm will
be In place by January 2012.

MAO'S COl model wlll impose requirements similar to the statutory assurances states make to CMS as a
conditio n of approval for a HCSS waiver t hrough assurances and sub-assurances structured in a manner
similar to th&! following:


~
                            ExampleNl Modeli n, P CO CQlaftc r HCBS Waivcn
                              ~ersons e nrolled in pca have needs consistent with an institutional level or
     Level orcan!
                               =. 

". 

~~
                               al1;cipanl~ have a ilervice plan that is appropriate to their needs and
     Service Phm
                               references, and rco::eivo the services or suppom specified in the servico plan.
     Provider
     Qualificationl·
                              ko prov iders are qua lified to de liver services or stJpports.
r    Health a nd W. lfare

     financial 

                                articipanls' health Rnd welfare are safeguarded, and pca Attendants are
                               rained, certified and qualified to provide reo  services. 

                                laims for PCO services are paid according to State and CoL1 S MCO payment
     Accou ntability            ethodologies spec ified in the regulations and Mca handbooks. 

     AdlDhlistrative 
        MAD is actively involved in overseeing pea services and ultimately 

     All lhority              responsib le for all facets of such services. 



                                          Example H 2-8ub-Ass uraa-ces
1. 	 lAvel of Car.            lTho levels of care of enro lled participants are reevaluated at least annually
                               • 	 Service plans and lPaCs aro updared or revi,ed at least annually and upon
                                   participant need.
     Service Pbu:
     JQdivldua.l P liO of      • 	 Services are de livered in accordance w ith the lPoC, including the type,
                                   scope, amount, Ind frequency specified inlhe scl"ll ice plao.
     Care ("IPoC")
                               • 	 Participants are afJotded choice between tlte delegated and self-dirco::tcd
                                  services model, and providers.
                                he state and MCa verify that providers initially and continually meet
     Provider
                               ~~ired licensure and/or certifieation standards, and adhere to other state
     QualiflClfioul
                                andarcb before waiver services are furnished.


                                                                                                   Page Alol A7
                                                                                                                    Page 14 of 17




                      ~
                                 state alld MeQ verifies that attendants initially and continually meet
    AUtJldant               required training and ccl1ification standards (iocluding CPR and crimil'lal
    Qualifications          history screening), and adhere to other slate standards before PCO services Sit)
                             dministered.

Similar \0 the HeSS CQI model, MAD will use        ~OJscovery"   methodology in the monitoring process to
uncover dlWiations from program desiln.          Discovery will allow Program managel'$ to know when
program processes are not being followed, and when the assurances and sub-assunmces are not being
met. MAO will establish performance measures that are measurable and can be Included as a metric,
have facial valid.ity, are based on a correct unit of analysis, and {4} are repre5entatlve.
MAO win further Identify (1) the data source(s) for each performance measure; (2) a method for
assuring that the data will be representative; (3) information on the party or parties responslblt for
collecting, reviewing. and using the data to manage the program; and (4) the frequency with which
~ummary (i.e., aggregated) reports will be generated and reviewed.

When the State Identifies instances III which tile PCO program Is not operating as Intended ami does not
comply with State and Federal regulations, the State will initiate remediation actions to address and
resolve all uncovered, indillldual problems. The    pca Billing ~nd Administrative Workgroup will review
~nd advise on the remediation prIKess.


2. 	 Corrective Measures Relating to Heritage Deficiencies
The State has caken several corrective measures that address the deficiencies identified in the Draft
Audit, and provide assurance that claims submitted by Heritage afld oth.r PCO service providers comply
with Federal and State law.

(a) Annual Training

In September and December 2010, the State revised the PCO requirements to stress the importallCe of,
afld ildopt measures to facilitate, compliance with the training requiremellls.

First, the State provides staff tralfllllg materials and technica l assistance electtoflically to PCO agencies.
Guidance on the tralfling requirement, documentation required to demonstrate camplian", with the
training regulations, and the technical ilSilstance documents provided al trainings are posted to the
Adult and Long-Term services Olvlslon (MALTSO") website. Tile Stilte Is working to move these materials
to MAO's website. MAO also sends updates on PCO to the E~ecutlve Director of the New Me~ico
Anociiltlon for Home and Hospice Care, who then regularly sends t~e tlpdates to        peo     agencies through
regulilr email blasts.

Ne~t, bot~ ofeoLTS MCOs-Evercare and Amerigroup-provide             PCO agencies with continuing education
re,ardlng the State re,u latory requirements and responsibilities..       Everc~re provides such education
both quarterly and monthly, and documents attendance at such events.             T~tt MC~    also stipulate In
their contractual agreements t~at PCO agencies are required to abide by all State and Federal          rules   of
regulations, includlns t~e 12 hours of annual training.

    • 	 (verare's Compliance team conducts year-round disk audits of peo aglncles t~at pull t~1 files
        of a random sample of asencils over a 9 to 12 month time period. If the COmpliilnctt team
        provides Quality of eilre, or Irilud, waste, and abusl reportl, the sample si~e and timtkam,

                                                                                                Pagt A.4 of A7
                                                                                                               Page 15 of 17




        reviewed may be e~panded. Following the audit, the peD agency receives either an Opportunity
        Plan for Improvement or a Corrective Action Plan. Non-compliance with the latter risks
        contractual termination of the PCO agency's contract with Evercare.
    • 	 Amerigroup's Qualitv Mana,ement Depntment          (~QMO")   rqularly reviews PCO documentation
        to Investigate beneficiary complaints, critical incidents, and DIMr qUillity improvement
        Initiatives. If a review indicates that PCO requirements have nolbeeo met, Amerigroup's QMD
        will contact the pea agency to obtain policies and procedures for personal care attendant
        qualifications, training records, and corrective action plans explaining what steps the attendant
        Ciln take to comply with pea requirements. If an agency's failure to comply with peo
        requi reme nts is egregiOUS al'ldjor the agency does not comply with the request for a corrective
        ,clion plan, Amerigroup initiates sanctions r.angill8 from a moratorium on new authonzatlons
        and transfers, to tennlnatlon of the PeO agency's cont~ct.

(b) CPR Certification
The MeOs stipulate in their contl1lctual agreements th at peo agencies are required to abide by all State
and Federal regulations, includina: requiring all attendants to have current and valid ePR certifications.
As dttailed above in the discuS5ion of corrective stra tegies relalln! to the annUli tralnlrl8 requirement,
MeO has8stabUshed striltegies for assurlns compliance with the ePR certifICation requirement.

Since the transition to Managed Care, pea providers have been required to develop an IPoe service plan
in accordance with the services authorized by the consumer's Mea. Agencies must keep on file the
Mea's authorization for services.

(e) iB Testing
8eginning In 2009, the training required of new pca providers has emphasized the importance of
compliance with the requirement for TB testing.          Effective December 2010, MAO's revised pea
regulations clarified the requirement to follow the current rtcommendations of the New Mexico
Department of Health (MNM DOW) and thl Federal centers for Disease COntrol (~COC"). Technical
aS$istance documents provided at the t rainings were posted on the ALTSO and MAO websltes to further
reinforce this rl!gulatory requirement and provide lIuidance on the process, Includinll the required form
ilnd contact information for the NMDOH TB progfim. MAO also emails updiltes on pca compliance
Issues to all PCO providers. These emalls are cc'd to d&sillmlled MeO ruff lind to the Executive Director
of the New    Me~lco   Association for Home and Hospice Care       (~NMAHHC"),    who t hen forwards the
updates to PCO agencies through regular email blasts to NMAHHe members.

A:; detalled above in the discussion of corrective strategies rel ,tinll to the annual training requirement,
each of the COLTS MCa! provides pea agencies with continuing education "Iardinl the State
resulatory r'qulremenu and responsibilities. The State is dtveloplng a training plan for PCO providers
that will Include lncreud State oversight of the trainlnl and materials provided by the Meas. The
MeOs also stipulate in their contractual agreements that PCO ag.nelu are' requIred to abide by all State
and Federill rules of reguliltions, including the requirement to millntain documentation of compliance
with the requirement forTB testing oteach attendant.




                                                                                             PaSI AI ofA7
                                                                                                                   Page 16 of 17




Cd} Prior Approval of Legal Guardianship or Attorney-in-Fact Services
Beginnln! in 2009, the trainIng required of new Pea providers took care to emphasize the Importance
and the process of approving a legal representa tive to be a beneficiary's paid attendant. Effective
December 2010, MAO's revised pea regulations clarified the difference between a personal
representative and a legal representative, while continuing to emphasize the nltfll for the Stilte's prior
approval of appointment of the legal representatIve. Technical assistance documents provided at the
trainings lind posted on t he ALTSO and MAD wehsites further reinforce this regulatory requireme nt, lind
provides guidance on the in form ation   n~ed    to obtain ilpproval.

The Mea Service Coordi nators assist in assurflll compliance with the prior approval for paid legal
representatives re quirement. If the servke Coordinator discovers a legal representative acting in the
role of the paid attendant without obtaining prior state approval, he/she will alert the PCO agency. In
addition, if a beneficiary communicates to the Service Coordinator either at the tim e of assessment or
by calling the Customer service Line thilt he or she wiShes to employ their legal representative as his or
her paid attendant, the Service Coordinator contacts t he PCO agency, on the beneficiary's beha lf, to
facilitate the process. The request Is documented in the beneficiary's file.

(e ) Supported Units ofPayment
Following the audit period cove red by the Draft Audit, PeO services managed through t he CoLTS
managed care contract have significantly changed the way that PCO services are billed and paid.

MCO! now require each peo agency to obtain Mea authorlxatlon for PCO services and tlmeshli!ts
before a claim will be paid.    Each Mea has claim processes in place that include methods for assuring
that no unsupported cla ims are paid, Including data mining to review units clalme:d, authorized uni ts,
billed claims, and paid claims. In accordance with the State CoLTS contract, each MCO must Investigate
pursuant to Internal com pl iance procedures and report all instances of fraud, waste, or abuse w ithin 5
business days of detecting suspicious activity to the QAB.

The Meas investigiltive unit must employ a consistent Investigative strategy that includes logical
Investigative plans with defined and appro priate investigative measures. In cooductin. its Investiga tion,
t he MCO may contact the complainant to veri fy the allegations and request peo records from the
provider. The Meo must review and research the provider's contract and claims exposure, and any
public reco rds pertinent to t he allegations. The MeO's report to MAD must identify the PeO provider at
issue by name, address, and MCO and National Provider Identification ("NPI") numbers. In addition, the
notification provides in format ion on the affected beneflCiar(y/les), date, source and nature of
complaint, approximate dollars paid, and a descript ion of the allella t lons and preliminary findings. The
MCO's report constitutes a Hnotification of complalnt.~

If QAB refe rs the allegations to the Office of the Attorney General ("AGN ), the M eO Investigative unit
assists tht AG' s office in a suppo rtive role. if QAB does not reler the allegations to t he AG's offiClt. t he
investigat ive unit may pursue reco upment .




                                                                                                 Pase AiofA1
                                                                                                               Page 170f17




Since 2008, to ensure compliance with Federal and State pea reqUirements, the State (ALTSD or MAD's
turren t Quality Assurance program) has conducted site reviews of selected peD agencies. During these
sile reviews, the State has compared peD providers' timesheets against the approved plans of Gfe and
Mea authorizations. When deficiencies are identified, the State Issues corrective actiOn plans.

In addition, the revlsioflS the Sta te made to peD regulations In September 2010 and Oecember 2010
stressed I he Importance of l imeshee! accuracy. The technical assistance documents provided at peD
trainings, and posted on I he ALTSO and MAO websit&s include 11 section on             ~ensurlng   Timesheet
Accuracy.~   The State holds quarterly trainings for providers on peo requ irements including those
relating to timesheets, and has scheduled a webinn for October 2011 on the revised regulations that
went into effect In September 2011.

3. Other PCO Matters
When it revised t he peo regulations In December 2010, MAD introduced a PCO Service Guide to record
obseNations   ~nd   responses to an individual's functional level and independence to perform AOls and
IAOls. The guIde provides an impairment rllting system for identifylns Pea 5eNices and seNlce time
ranaes. The luide requires a service coordinator to Identlfy and record whether the Ileneflc!af)' shares a
household with other PCO recipients and name the other PCO re~ipients.                 The new pea rules
strengthened the regulations to clarify that duplicative peo services are not allowed for individuals
receiving the S41me or similar seNlces by other sources, Including natural supports.

4. Planned Upgrade in Service Reporting
The Statl hop'u to put In place a telephonic and GPS trackins system alnlady Implemented by several
other silltes, Including New York and Washington, that would enable time sheets to be automatically
generated. Under this system, each day, either an attendant would call In whenever he or she begins
and finish es providing Pea seNices to each beneficiaf)', or the attendant's location would be tracked
us!ns a GPS system to detenTIine when the attendant was at a site to furnish services to a beneficiaf)'.
The system would t hen automatically fi ll In the attendant's time sheets and calculate the hours the Pea
provider would claim.     This system should substantially reduce the potential for human errors In
enterlll8 time sheeu, while minimizing the time required to complete tIme sheets. The State has
estimated fhat this system would cost   appro~imately   $2 million.




                                                                                              Page A7 of A7
